<html>
<title> - ALIEN REMOVALS UNDER OPERATION PREDATOR</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                ALIEN REMOVALS UNDER OPERATION PREDATOR

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             March 4, 2004

                               __________

                             Serial No. 73

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

92-347              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 4, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    11

                               WITNESSES

The Honorable Michael J. Garcia, Assistant Secretary, U.S. 
  Immigration and Customs Enforcement, Department of Homeland 
  Security
  Oral Testimony.................................................     3
  Prepared Statement.............................................     6
Mr. John Walsh, Chairman of the National Advisory Board of the 
  National Center for Missing and Exploited Children; host of 
  ``America's Most Wanted: America Fights Back''
  Oral Testimony.................................................    14
  Prepared Statement.............................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    13

 
                         ALIEN REMOVALS UNDER 
                           OPERATION PREDATOR

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:12 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler [Chairman of the Subcommittee] presiding.
    Mr. Hostettler. The Subcommittee will come to order. Today 
the Subcommittee on Immigration, Border Security, and Claims 
will examine ``Operation Predator,'' the new U.S. Immigration 
and Customs Enforcement's effort to identify and remove alien 
child sexual predators. I congratulate Assistant Secretary 
Michael Garcia for instituting Operation Predator and making 
the removal of aliens who perpetrate these heinous crimes a 
priority of his agency.
    According to a recent study funded in part by the 
Department of Justice, between 300,000 and 400,000 U.S. 
children are victims of some type of sexual exploitation every 
year. The National Center for Missing and Exploited Children 
has reported an increase of reported child abuse cases from 
4,500 in 1998 to 82,000 in 2003.
    Major news stories continually break about sexual predators 
who are guests, invited or uninvited, in our country. In 
December, a British national employed as a diving coach at 
North Carolina State University was arrested and pleaded guilty 
to sex crimes. Rafael Ruiz, a Dominican national, was sentenced 
by a Federal judge in September to 44 months in prison for 
operating a brothel in Plainsfield, New Jersey, and for his 
part in smuggling Mexican children into the U.S. to work as 
forced prostitutes.
    In Baltimore, ICE agents arrested 50 convicted alien child 
sex predators in August. Fifty. All had avoided deportation. 
One of them was a summer camp employee who was convicted of 
molesting three pre-pubescent sisters.
    In my home state of Indiana alone, ICE has arrested 26 
child sexual predators. This includes the arrest of Mexican 
nationals Jose Delana Martinez, who was previously convicted of 
the sexual battery of a 13-year-old in Johnson County; and 
Adrian Herrera, convicted of sexual misconduct with his own 14-
year-old daughter.
    The children who are the victims of these criminals can be 
immigrants themselves, preyed upon in their own neighborhoods; 
or they can be native born. In either case, it should be the 
Department of Homeland Security's goal to protect all of 
America's children.
    In the past, the Judiciary Committee has worked to enact 
bills that assist in combatting child sexual predators, 
including Megan's Law, the Missing Children Act, the PROTECT 
Act, and even the Homeland Security Act. These pieces of 
legislation have all made Operator Predator possible.
    Operation Predator is an initiative Mr. Garcia launched on 
July 9, 2003, to identify alien child predators and remove them 
from the United States. As part of this operation, ICE is 
working with State and local police to help arrest alien 
predators and apprehend smugglers of children. ICE is 
prioritizing for removal aliens already convicted of sex 
offenses, as well as identifying alien sex offenders in prisons 
around the country so that they can be removed upon release.
    The bureau routinely notifies foreign governments of aliens 
with a history of sex offenses before their removal, and seeks 
information from foreign governments about sex offenders 
seeking entry into the United States. In less than 8 months, 
ICE has arrested over 2,000 child predators and sex offenders 
as part of Operation Predator. This project clearly 
demonstrates the effectiveness of the merger of various 
immigration and law enforcement components into the Department 
of Homeland Security. It also demonstrates the need to draw on 
cooperation from State, local, and non-governmental resources 
to combat the national tragedy of child sexual exploitation and 
abuse.
    For example, the combination of the Customs Service's 
history of combatting pornography and former INS' role in 
removing aliens is utilized to hunt down alien child predators 
in this program. Now merged into the Immigration and Customs 
Enforcement, or ``ICE,'' the intelligence capabilities and 
experience of its former components are utilized more 
effectively than previously possible.
    ICE has created the Cyber Smuggling Center as the national 
base to hunt down illegal pornographers and alien child 
predators who use the Internet to lure minors. It has cross 
referenced their former databases to find alien absconders with 
child predator histories.
    ICE has recently created a website, the National Child 
Victim Identification System, that combines State Megan's Law 
registries of sexual predators to create, in effect, an easily 
accessible national database of child sexual offenders.
    ICE has recently signed a memorandum of understanding with 
the National Center for Missing and Exploited Children, or 
NCMEC, an organization made possible by the Missing Children 
Assistance Act. This allows NCMEC to provide ICE with 
information from their own reports with alien child predators, 
and creates the National Child Victim Identification System.
    The Subcommittee will examine these components of Operation 
Predator in more detail to see how ICE has taken the lead in 
protecting our children from harm. We will also examine how 
this Subcommittee may further empower ICE in ridding the 
country of alien predators of child sex crimes.
    The Chair now turns to the gentleman from Arizona for an 
opening statement if he has one.
    Mr. Flake. Thank the gentleman.
    Mr. Hostettler. President George W. Bush appointed Mr. 
Michael Garcia to serve as the Assistant Secretary for U.S. 
Immigration and Customs Enforcement, or ICE, November 25, 2003, 
as part of the creation of the Department of Homeland Security. 
ICE focuses on an array of national security, financial, and 
smuggling violations, including human trafficking, commercial 
fraud, narcotics smuggling, child pornography and exploitation, 
and immigration fraud.
    Just prior to this appointment, Mr. Garcia was Acting 
Commissioner of the Immigration and Naturalization Service. He 
also served as a career Federal prosecutor in New York City, 
working on high-profile terrorism cases such as the bombing of 
U.S. embassies in Nairobi and Dar es Salaam and the first 
attempted World Trade Center bombing in 1993.
    Mr. Garcia is a graduate of the State University of New 
York at Binghamton. He received his master's degree from the 
College of William and Mary, in English; and his juris 
doctorate from the Albany Law School of Union University, where 
he was valedictorian.
    During the transition to the Department of Homeland 
Security, Mr. Garcia integrated several law enforcement 
organizations to form ICE. Among them was the Customs Service, 
with a history of combatting pornography and exploitation of 
minors, and the enforcement wing of the former INS. A product 
of this unique combination has been his brainchild: Operation 
Predator.
    Mr. Garcia, I invite you to tell the Subcommittee about 
your project's many accomplishments today.

    STATEMENT OF THE HONORABLE MICHAEL J. GARCIA, ASSISTANT 
SECRETARY, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Garcia. Thank you very much, Mr. Chairman. Members of 
the Subcommittee, thank you for the opportunity to appear 
before you today to discuss Operation Predator, one of the 
priority initiatives of the Department of Homeland Security's 
U.S. Immigration and Customs Enforcement, or ICE.
    In July of last year, Secretary Ridge joined forces with 
John Walsh of ``America's Most Wanted'' and Ernie Allen, 
president of the National Center for Missing and Exploited 
Children, or NCMEC, to launch Operation Predator, a program to 
target some of the most heinous criminals on our streets: those 
who sexually abuse children.
    Each year, as you mentioned Mr. Chairman, millions of 
children fall prey to sexual predators. Experts estimate that 
one in five girls and one in ten boys in the United States are 
sexually exploited before they reach adulthood. These young 
victims are left with permanent physical and emotional scars. 
That tragedy is compounded by the fact that child prostitution, 
human trafficking, child pornography, and international sex 
tourism now generate billions of dollars a year worldwide. The 
advent of the Internet, with its borderless and anonymous 
cyberspace, has created even greater opportunities for 
predators to profit by exploiting children. Operation Predator 
was established to combat these activities.
    Operation Predator is a coordinated law enforcement and 
public awareness program that draws upon ICE's unique 
investigative authorities and resources, as well as ICE's 
evolving relationships with organizations like NCMEC. The 
program has two primary goals:
    First, to identify, investigate, arrest and, where 
appropriate, deport these predators; and
    Second, in partnership with NCMEC, to educate parents about 
the threats their children face, and what they can do to 
protect their families.
    I am pleased to report that Operation Predator has resulted 
in an unprecedented success. In the 8 months since the program 
was first launched, more than 2,000 child sex predators and sex 
offenders have been taken off the streets of America. We have 
initiated the largest ever investigation into child 
pornography, and we have effected the first ever arrests of sex 
tourists under the new statutory authority provided by the 
recently enacted PROTECT Act.
    We want to send a message loud and clear that international 
borders no longer shield child sex predators from the law. 
While Operation Predator is indeed a worldwide enforcement 
effort, it has a direct impact on the safety of the streets in 
your local communities, as evidenced in that nearly 1,300 of 
the predator arrests occurred in the nine States represented by 
the Members of this Subcommittee.
    While illegal aliens, lawful permanent residents, and U.S. 
citizens are all potential targets of Operation Predator, the 
vast majority of the more than 2,000 arrests to date are 
illegal aliens or otherwise legal residents whose crimes make 
them subject to removal from this country.
    Two thousand predators. Who are they? They include a 
pediatrician in Chicago who had child pornography in his home 
and date rape drugs hidden in his car; an illegal alien in 
Texas convicted of the sexual assault of a child, after having 
been deported from the United States on three previous 
occasions--he is now detailed and serving time in a Federal 
prison, awaiting deportation; and an American citizen from 
Seattle who thought he could avoid justice by flying to 
Cambodia to engage in sex with 7-year-old boys. These are just 
a few of the faces of Operation Predator. How they came into 
the custody of ICE is the subject of today's hearing.
    As you know, a year ago this week, ICE was formed by 
combining the investigative and intelligence arms of the former 
Immigration and Naturalization Service and the U.S. Customs 
Service, as well as the Federal Protective Service and the 
Federal Air Marshals. By integrating these once fragmented 
resources, the Department of Homeland Security not only created 
the second-largest investigative agency in the Federal 
Government, but it also created a dynamic and innovative new 
law enforcement organization focused on homeland security--
specifically, border security, air security, and economic 
security.
    One of the issues ICE faced was a large alien absconder 
population, fugitives with outstanding final orders of removal. 
Applying a systematic approach to addressing the large number 
of alien absconders, ICE set about prioritizing the most 
dangerous offenders. We first developed a ``Top Ten'' list, 
with the worst of the worst. While this standard law 
enforcement tool was not regularly employed by the legacy INS, 
it proved to be a tremendous success for ICE. With the help of 
John Walsh and ``America's Most Wanted,'' nine of the original 
``Top Ten'' were located and apprehended within the first 2 
weeks, and the tenth was soon confirmed to have already left 
the country.
    This initiative revealed that among the most violent 
criminal subset of the alien absconder population, many have 
convictions for sexual offenses and, in particular, offenses 
against children. By law, any non-citizen who commits such a 
crime is to be deported back to his or her home country. 
Unfortunately, that wasn't always the case under the INS, as 
you well know. The Committee has heard too many times terrible 
stories about predators who should have been detained and 
deported, but were instead freed to prey upon our children 
again.
    To address this problem, ICE began to examine Megan's Law 
directories, matching our immigration databases to those 
Megan's Law lists and taking into custody deportable aliens 
convicted of sexual crimes against children. Our success rate 
was astounding, Mr. Chairman, and we quickly came to recognize 
the awful dimension of the child predator problem.
    In addition to the high number of alien predators, our 
investigators were unearthing remarkable numbers of child 
pornographers on the Internet, human smuggling organizations 
trafficking in children for sexual exploitation; as well as sex 
tourists, American citizens who travel to other countries to 
engage in sex with minors. ICE has made the first four arrests 
under that new statute.
    In a way unforeseeable before the creation of the 
Department of Homeland Security, ICE is coordinating our 
powerful resources and authorities into a united campaign 
against those who prey upon our children; drawing upon the full 
range of intelligence, investigative, and detention and removal 
functions of ICE to target those who exploit children. 
Protecting children from these ruthless predators is 
undoubtedly paramount to our homeland security mission.
    Operation Predator is truly an ICE team effort that employs 
almost every one of ICE's six operational divisions. ICE 
special agents are on the front lines of our investigative 
efforts, but other ICE components are critical to the success 
of this initiative.
    For example, the ICE Law Enforcement Support Center, or the 
LESC, serves as a national enforcement operations and 
intelligence center by providing timely information on the 
status and identities of alien suspects arrested or convicted 
of criminal activity. The LESC has lodged over 180 
administrative detainers on aliens who have been arrested for 
Operation Predator offenses. Further, leads are sent to the ICE 
field offices for action, and the LESC coordinates with local 
law enforcement when the call requires local intervention.
    A prime example of the LESC's impact was demonstrated in 
the arrest of a particularly heinous child predator late last 
summer. In August 2003, the LESC received a call on the 
Predator Hotline. The call indicated that a 27-year-old Kenyan 
national, who was reportedly afflicted with AIDS, was having 
sex with female minors in the Boston area. The ICE LESC 
immediately provided the information to police in Lawrence, 
Massachusetts, who then arrested the individual the following 
day on charges of raping a 14-year-old girl in a local 
apartment. An ICE detainer was also placed on the individual, 
because he will come into our custody when the criminal 
proceedings are concluded.
    The case represents just a single example of how the public 
is one of our most valuable partners. Members of the public are 
encouraged to call our 800--866-DHS-2ICE line to report sex 
offenders to ICE. We have also created a dedicated e-mail 
address at ``Operation.Predator at dhs.gov'' to receive tips 
through e-mail.
    As I mentioned before, we have an excellent working 
relationship with NCMEC. We have two agents assigned to review 
the hundreds of leads generated daily from NCMEC's Hotline and 
CyberTipline. From these tips, our agents are able to generate 
a significant number of leads that are sent out to the ICE 
field offices around the country.
    Just last month, the ICE office in Los Angeles conducted a 
search based on a NCMEC lead. During the search, a computer and 
narcotics paraphernalia were seized. And based upon what was 
found, Los Angeles Child Protective Services removed three 
children from that home.
    On March 1st, 2004, we celebrated the 1-year anniversary of 
the Department of Homeland Security and ICE. Clearly, we have 
seen that the merging of the legacy missions and authorities in 
ICE allows a multi-disciplined approach to homeland security 
that is crucial to our efforts to safeguard America, especially 
our children.
    Through Operation Predator, ICE is working diligently to 
implement the President's goal of eradicating the special evil 
in the abuse and exploitation of the most innocent and 
vulnerable.
    Thank you, Mr. Chairman and Members of the Committee, for 
the opportunity to testify today on this important topic. And I 
am eager to continue to work with Congress and to provide the 
American people with the level of security they demand and 
deserve. And I look forward to your questions. Thank you.
    [The prepared statement of Mr. Garcia follows:]

                Prepared Statement of Michael J. Garcia

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE, thank you for the 
opportunity to appear before you today to discuss Operation Predator, 
one of the priority initiatives of the Department of Homeland 
Security's (DHS) U.S. Immigration and Customs Enforcement (ICE).
    In July of last year, Secretary Ridge joined forces with John Walsh 
(``America's Most Wanted'') and Ernie Allen, of the National Center for 
Missing and Exploited Children (NCMEC), to launch Operation Predator, a 
program to target some of the most heinous criminals on our streets--
those who sexually abuse children.
    Each year, millions of children fall prey to sexual predators.\1\ 
Experts estimate that one-in-five girls and one-in-ten boys in the 
United States are sexually exploited before they reach adulthood.\2\ 
These young victims are left with permanent psychological, physical, 
and emotional scars. That tragedy is compounded by the fact that child 
prostitution, human trafficking, child pornography, and international 
sex tourism now generate billions of dollars a year worldwide. The 
advent of the Internet, with its borderless and anonymous cyberspace, 
has created even greater opportunities for predators to profit by 
exploiting children. Operation Predator was established to combat these 
activities.
---------------------------------------------------------------------------
    \1\ Carol Bellamy, UNICEF Executive Director, ``Child exploitation 
is one of UNICEF's top five concerns for children in 2004'', January 1, 
2004.
    \2\ D. Finkelhor. ``Current Information on the Scope and Nature of 
Child Sexual Abuse.'' The Future of Children: Sexual Abuse of Children, 
1994.
---------------------------------------------------------------------------
    Operation Predator is a coordinated law enforcement and public 
awareness program that draws upon ICE's unique investigative 
authorities and resources, as well as ICE's evolving relationships with 
organizations like NCMEC. The program has two primary goals:

        (1)  To identify, investigate, arrest and, when appropriate, 
        deport these predators; and

        (2)  To educate parents about the threats their children face 
        and what they can do to protect their families.

    I am pleased to report that Operation Predator has resulted in 
unprecedented successes. In the eight months since the program was 
first launched, more than 2,000 child predators and sex offenders have 
been taken off the streets of America; we have initiated the largest-
ever investigation into online child pornography; and we have affected 
the first-ever arrests of sex tourists under the new statutory 
authority provided by the recently enacted PROTECT Act.
    Two thousand predators. Who are they? They include a pediatrician 
in Chicago who had child pornography in his home and date-rape drugs 
hidden in his car; an illegal alien in Texas, convicted of the sexual 
assault of a child after having been deported from the United States on 
three previous occasions and is now detained and serving time in a 
Federal prison awaiting deportation; and an American citizen from 
Seattle who thought he could avoid justice by flying to Cambodia to 
engage in sex with seven-year-old boys. These are just a few of the 
faces of Operation Predator. How they came into the custody of ICE is 
the subject of today's hearing.
    First, Mr. Chairman, let me give this Subcommittee some context 
about ICE's strategic approach to border security and immigration 
enforcement, which are top mission priorities for the Department of 
Homeland Security. It was from this approach to border security that 
Operation Predator emerged.
    A year ago this week, ICE was formed by combining the investigative 
and intelligence arms of the former Immigration and Naturalization 
Service (INS) and the U.S. Customs Service, as well as the Federal 
Protective Service and the Federal Air Marshal Service. By integrating 
these once-fragmented resources, the Department of Homeland Security 
not only created the second-largest investigative agency in the Federal 
government, but it also created a dynamic and innovative new law 
enforcement organization uniquely and exclusively focused on homeland 
security--specifically border security, air security, and economic 
security.
    The primary mission of ICE and the Department of Homeland Security 
is to detect and address vulnerabilities in our national security--
whether those vulnerabilities expose our financial systems to 
exploitation or our borders to infiltration. With its newfound ability 
to investigate immigration violations--as well as smuggling violations; 
with its ability to target human smuggling alongside of narcotics, 
weapons, and other forms of smuggling; and with its ability to follow 
the illicit money trail wherever it may lead, ICE is in a unique 
position to enforce border security in ways never before possible.
    A good example of this approach was the case in Victoria, Texas, 
where 19 people, including children, were found dead in the back of a 
tractor-trailer. By combining our financial investigation with our 
immigration authorities, we were able to trace the money trail back to 
the members of the smuggling ring, including its leader, who had fled 
the country. ICE's investigation led to the arrest and indictment of 
the ringleader and thirteen other co-conspirators. Along the way, we 
rescued a three-year-old boy from this same band of smugglers in an 
undercover operation and arrested his captors. In the process, we 
created a new model for investigating border security crimes, a model 
that became the centerpiece of our national anti-smuggling strategy.
    The Victoria, Texas, case shows how criminal organizations exploit 
vulnerabilities in our border security to smuggle aliens. The crime 
rings involved might simply be seeking profit, but they could just as 
easily be terrorist rings seeking to infiltrate this country. 
Similarly, the large number of criminal alien absconders, i.e., those 
aliens with unexecuted final orders of deportation who have been 
convicted of a criminal offense, in this nation not only signifies a 
vulnerability in the nation's immigration enforcement efforts, it also 
represents a significant threat in which individuals who entered or 
remained in the country illegally are freely walking the streets. 
Again, these individuals could be mere administrative fugitives. Or 
they may be something much worse, such as the child predators I have 
mentioned. And while sexual predators are dangerous threats in their 
own right, we must recognize that border vulnerabilities could be 
exploited for even graver purposes: terrorists can--and indeed have--
enter the country on false premises, and then simply disappear into the 
interior. Like every other major initiative at ICE, Operation Predator 
emerged with these various types of threats in mind.
    Applying a systemic approach to addressing the large number alien 
absconders, ICE set about prioritizing the most dangerous offenders. We 
first developed a ``Top Ten'' list with ``the worst of the worst.'' 
While this standard law enforcement tool was not regularly employed by 
the legacy INS, it proved to be a tremendous success for ICE. Nine of 
the original ``Top Ten'' were located and apprehended within the first 
two weeks, and the tenth was soon confirmed to have left the country.
    This initiative revealed that among the criminal subset of the 
alien absconder population, many have convictions for sexual offenses 
and, in particular, offenses against children. By law, any non-citizen 
who commits such a crime is to be deported back to his or her home 
country. Unfortunately, that wasn't always the case under the INS, as 
you know. This committee has heard too many terrible stories about 
alien predators freed to prey upon children again and again.
    To address this problem, ICE began to examine Megan's Law 
directories, matching our immigration databases to Megan's Law 
databases, and rounding up deportable aliens convicted of sexual crimes 
against children. Our success rate was astounding, Mr. Chairman, and we 
quickly came to recognize the awful dimension of the child predator 
problem. Besides the high number of alien predators, our investigators 
were unearthing remarkable numbers of child pornographers on the 
Internet, human smuggling organizations trafficking in children for 
sexual exploitation, and the relatively new phenomenon of ``sex 
tourists,'' American citizens who travel to other countries to engage 
in sex with minors. So we coordinated all, systematically.
    As appropriate within ICE's existing jurisdiction, Operation 
Predator has grown to include U.S. citizens and residents suspected of 
sex crimes against children. This new approach targets child predators 
by combining our immigration authorities and our child pornography 
authorities to merge efforts in a way that had never been done in the 
past. In a way unforeseeable before the creation of the Department of 
Homeland Security, ICE is coordinating once fragmented resources and 
underutilized authorities into a united campaign against those who prey 
upon our children--drawing on the full range of intelligence, 
investigative, and detention and removal functions of ICE to target 
those who exploit children. Protecting children from these ruthless 
predators is undoubtedly paramount to our homeland security mission.
    The results of this initiative are unprecedented in law 
enforcement. The success of Operation Predator--as measured by the 
number of child predators ICE has taken off the streets--is a testimony 
to the tireless work of ICE agents who have embraced the integration of 
the legacy agencies' legal authorities and used them in new and more 
effective ways. Since Operation Predator was launched in July 2003, ICE 
has arrested more than 2,000 child predators. While this is indeed a 
worldwide enforcement effort, it has a direct impact on the safety of 
the streets in your local communities, as evident in that nearly 1,300 
of these arrests occurred in the nine states represented by the Members 
of this Subcommittee.
    Recognizing the synergies realized through our own merger, we 
aggressively sought to incorporate and join forces with others in this 
important effort. ICE is currently working closely with a number of 
agencies and organizations under Operation Predator. Such cooperation 
is critical to the success of this initiative, since child predator 
investigations often cross jurisdictional boundaries and require 
specialized assistance to help victims overcome the trauma of their 
abuse. ICE Operation Predator partners include other DHS agencies such 
as U.S. Customs and Border Protection (CBP); state and local police 
departments, the U.S. Postal Inspection Service; the U.S. Department of 
State Office to Monitor & Combat Trafficking in Persons; NCMEC; Rape, 
Abuse & Incest National Network (RAINN); INTERPOL; the U.S. Department 
of Justice; and many others who also provide critical support to the 
program.
    Let me give you a few examples of how our partnerships are working. 
In January 2004, ICE formalized a partnership with NCMEC aimed at 
helping both organizations track down child predators and save 
potential victims. The partnership allows us to coordinate national 
public campaigns that raise awareness of child exploitation crimes, 
help families learn to better protect their children, and educate the 
public on how to work with ICE to provide valuable tips and take 
predators off the streets.
    Some of the concrete ways we are working with NCMEC include:

        <bullet>  The National Child Victim Identification System: ICE 
        worked with other agencies to create a database to aid local, 
        state, federal, and international law enforcement efforts in 
        identifying victims of child exploitation.

        <bullet>  The Amber Alert Program: We have established 
        procedures and the technical capability for NCMEC to alert the 
        Federal Air Marshals when it receives an ``Amber Alert'' about 
        a suspected kidnapping, endangerment, or abduction of children 
        that might involve the commercial aviation system.

        <bullet>  The Code Adam Alert Program: The ICE Federal 
        Protective Service is helping develop and implement a plan to 
        quickly locate missing children within the 8,800 federal 
        facilities that it secures.

    ICE is also working with INTERPOL to enhance foreign government 
intelligence on criminal child predators. In conjunction with the U.S. 
National Central Bureau, we are developing a mechanism to issue 
INTERPOL notices to foreign law enforcement agencies whenever ICE 
deports a convicted sex offender.
    Operation Predator is truly an ICE team effort that employs almost 
every one of ICE's six operational divisions. ICE Special Agents are on 
the front lines of our investigative efforts, but other ICE components 
are critical to the success of this initiative.
    The ICE Law Enforcement Support Center (LESC) is a vital link to 
our state and local partners. The LESC serves as a national enforcement 
operations and intelligence center by providing timely information on 
the status and identities of aliens suspected, arrested or convicted of 
criminal activity. The LESC has lodged over 180 administrative 
detainers on aliens who have been arrested for Operation Predator 
offenses. Further, leads are sent to the ICE Field Offices for action 
and the LESC coordinates with local law enforcement when the call 
requires local intervention. A prime example of the LESC's impact was 
demonstrated in the arrest of a particularly heinous child predator 
late last summer. In August 2003, the LESC received a call on the 
Predator Hotline. The caller indicated that a 27-year-old Kenyan 
national, who reportedly is afflicted with AIDS, was having sex with 
female minors in the Boston area. The ICE LESC immediately provided the 
information to police in Lawrence, Massachusetts, who arrested the 
individual the following day on charges of raping a 14-year-old girl in 
a local apartment. This case represents just a single example of how 
the public can prove to be our most valuable partner. Members of the 
public are encouraged to call 1-866-DHS-2ICE to report sex offenses to 
ICE. We have also created a dedicated e-mail address at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="054a75607764716c6a6b2b5577606164716a7745616d762b626a73">[email&#160;protected]</a> to receive tips through e-mail.
    Another ICE asset being brought to bear in Operation Predator is 
the Cyber Crime Center (C3). The Center's child exploitation section 
focuses on child pornography and child sex tourism violations that 
occur on the Internet. C3's investigative specialists are trained to 
conduct forensic examinations of seized digital storage devices, such 
as computer hard drives, digital video devices, floppy disks, and back-
up tapes. Recently, C3 has played a crucial role in an investigation 
that closed down an American-owned beachside resort in Acapulco, 
Mexico, that catered to child sex predators. As a result of this case 
and others, the Mexican government created a task force to address 
crimes against children in its country.
    The computer investigative expertise that we develop through C3 has 
played a key role in helping us track down Internet-based child 
predators. In January of this year, ICE agents from the Newark Office 
worked with their partners in the Internal Revenue Service, the U.S. 
Postal Service and the New Jersey U.S. Attorney's Office to bring about 
the first indictments in connection to what we believe to be the 
largest Internet child pornography investigation ever undertaken by the 
U.S. Government. Regpay, a Belarus-based child pornography enterprise, 
and a Florida credit card billing service were indicted in a global 
Internet pornography and money-laundering scheme involving thousands of 
paid memberships to some 50 pornography websites. Based on this 
investigation, there are hundreds, if not thousands, of potential 
targets around the globe that we are investigating.
    A warrant served on the credit card processing server revealed 
approximately 70,622 domestic subscriber transactions, as well as 
25,597 foreign subscriber transactions. The domestic U.S. transactions 
were all provided to ICE field offices as enforcement leads, and 
information on the foreign-based transaction has already been passed to 
law enforcement officials in a number of countries.
    Given the large number of subscriber transactions, the first 
arrests were prioritized by targets we knew had contact with children. 
Through the investigation, ICE has arrested a campus minister at all 
all-girls school in New Jersey; a seventh-grade schoolteacher on 
Fresno, California; and a pediatrician in Chicago. The arrests will 
continue as more of these subscriber transactions are investigated. As 
this case clearly demonstrates, there is no safe haven for child sex 
predators; wherever you operate in the world, we are committed to 
tracking you down.
    Another example of how we are going beyond our borders to protect 
children involves the investigation ICE has launched against sex 
tourism from the U.S. Last year, Congress gave law enforcement a 
powerful new tool by passing the ``Prosecutorial Remedies and Other 
Tools to end the Exploitation of Children Today Act of 2003'', or the 
``PROTECT Act''. Under the PROTECT Act, it is a crime for any person to 
enter the United States, or for a U.S. citizen of lawful permanent 
resident to travel abroad, for the purpose of sex tourism involving 
children. Within a few months of President Bush signing the bill into 
law, ICE had arrested the very first offender under the new Act. On 
September 10, 2003, ICE agents in Seattle arrested Michael Clark, a 
U.S. citizen, on charges of traveling to Cambodia to engage in sex with 
minors. Clark was extradited from Cambodia, upon the request of the 
U.S., after he was arrested and charged by Cambodian police in June 
with ``debauchery involving illicit sexual conduct'' with boys 
approximately 10 and 13 years old. According to the criminal complaint 
filed with the court, Clark subsequently admitted to molesting 40 to 50 
children.
    ICE is proud to have not only made the first arrest, but also the 
second, the third and now the fourth Protect Act child sex tourism 
arrest. We have a number of additional ongoing investigations that are 
being worked by our foreign attaches in coordination with local police 
in places such as Thailand, Cambodia, and the Philippines. Based on 
these investigations, more arrests are expected. We want to send a 
message loud and clear that international borders no longer shield 
child sex predators from the law.
    Additional international enforcement cases under the Operation 
Predator umbrella include cases of human trafficking. One such case 
involved the dismantling of a U.S. adoption agency in which those 
arrested pled guilty to conspiracy to commit visa fraud and conspiracy 
to launder money in relation to adoptions of Cambodian children who 
were not orphans. The object of the trafficking conspiracy was to 
expedite the adoption process for Cambodian children to the United 
States families. In order to enhance their profits, members of the 
conspiracy would falsely represent to the U.S. Department of State and 
DHS that the adopted children were orphans, and would falsely represent 
the identity of the adopted children. The adoptive parents were then 
fraudulently charged approximately $11,000 for the Immigrant Visas for 
the adopted children.
    While illegal aliens, lawful permanent residents, and U.S. citizens 
can all commit the type of crime that is the focus of Operation 
Predator, the vast majority of the over 2,000 arrests to date are 
illegal aliens or lawful permanent residents whose crimes make them 
subject to removal from the United States after being placed in 
immigration removal proceedings. Criminal aliens who have no 
immigration status, or who have been previously ordered deported, can 
be deported without an immigration court hearing. As part of our 
overall immigration enforcement strategy, we are refocusing our efforts 
on the Institutional Removal Program (IRP), which is designed to ensure 
that aliens convicted of crimes in the U.S. are identified, processed, 
and, when possible, removed upon their release from a correctional 
institution. The Fiscal Year (FY) 2005 budget request of an additional 
$30 million for the IRP will further ICE's plans to expand the program 
nationally to all Federal, State, and local institutions that house 
criminal aliens.
    Additionally, the FY 2005 budget proposal for ICE includes $50 
million to continue the implementation of the ICE National Fugitive 
Operations Program, established in 2002, which seeks to eliminate the 
existing backlog and growth of the fugitive alien population over the 
next six years. Currently, ICE has 18 Fugitive Operations Teams 
deployed throughout the country and can report that approximately 6,000 
fugitives have been apprehended and nearly 700 additional criminal 
aliens have been apprehended in connection with fugitive operations 
teams. The FY 2005 budget request would fund an additional 30 teams to 
locate these potential threats to public safety. Overall, the 
President's Budget request includes increases of $186 million for ICE 
to fund improvements in immigration enforcement that will prove 
critical to the continued and expanded ICE effort to combat the public 
safety threat posed by illegal aliens in our country.
    On March 1, 2004, we celebrated the one-year anniversary of the 
Department of Homeland Security--and ICE. Clearly, we have seen that 
the merging of the legacy mission and authorities in ICE allows a 
multi-disciplined approach to homeland security that is crucial to our 
efforts to safeguard America--especially our children. Through 
Operation Predator, ICE is working diligently to implement the 
President's goal of eradicating the ``special evil in the abuse and 
exploitation of the most innocent and vulnerable.'' Thank you for the 
opportunity to testify today on this important topic and I am eager to 
work with Congress to provide the American people with the level of 
security they demand and deserve. I look forward to your questions.

    Mr. Hostettler. Thank you, Secretary Garcia. At this time, 
I will turn to the Ranking Member, the gentlelady from Texas, 
Ms. Jackson Lee, for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And 
thank you for calling this enormously important hearing. We 
know that Mr. Garcia has exhibited enormous commitment to this 
issue, and we thank him for his testimony.
    I guess, if I had to give him a good day today, it would be 
the opportunity to sit next to John Walsh. People ask the 
question, ``Why John Walsh, and why in the United States 
Congress?'' Mr. Chairman, because John Walsh gets things done. 
And I'm very pleased to have both his--if I might say, his 
yesterdays and his tomorrows are part of our army, if you will, 
to fight against the heinousness of those who prey upon our 
children.
    One thing that I've noted is that, as your testimony 
proceeded, Mr. Garcia, this is an international issue. And how 
horrific to find that any American would leave these shores to 
go elsewhere to prey upon children. That means that our reach 
is international, and the work of this Committee, Mr. 
Chairman--and I thank you for your leadership--is crucial.
    I chair the Congressional Children's Caucus. And we have 
worked with many in our Congress, including Congressman Nick 
Lampson, who heads the Missing and Exploiting Children's 
Caucus. We try to work together and be noticeably in place on 
some of these tragedies.
    On July 9, 2003, the Department of Homeland Security's 
Bureau of Immigration and Customs Enforcement announced the 
implementation of Operation Predator. Operation Predator is a 
comprehensive initiative designed to enhance our government's 
efforts to protect children from pornographers, child 
prostitution rings, Internet predators, alien smugglers, human 
traffickers, and other criminals. It has coordinated the 
department's once fragmented investigative and intelligence 
resources into a united campaign against child predators.
    As a slight anecdotal story, in keeping with respect for 
the family, many of us can just see some of the images of a 
very young girl in Florida; the videotape that was shown when a 
despicable individual approached her, in her innocence. Any of 
us that have even a semblance of heart and mind felt that pain. 
So this program directly involves and engages itself with that 
kind of heinous act.
    This is an extremely important program, and I agree with 
the statement that Assistant Secretary Michael Garcia made when 
Operation Predator was announced: There is nothing more 
important than protecting our children, the future of our 
nation.
    I also agree with what John Walsh said that day, when he 
thanked Secretary Ridge and the Department of Homeland Security 
for its efforts to increase the protection of America's 
children. Mr. Walsh said, ``Child predators are everywhere, and 
they are cunning.''
    It gives me tremendous hope that the future will be even 
brighter and safer for kids everywhere, thanks in part to 
Operation Predator. Since Operation Predator was implemented in 
July 2003, Federal agents have arrested more than 2,000 
suspected child sex offenders in a nationwide undercover 
investigation that has targeted child pornography purveyors and 
other predatory criminals. It has taken child pornography 
suspects into custody in nearly every State and every major 
city. It has arrested U.S. citizens who are accused of 
traveling overseas to meet with children for sex, others who 
are accused of molesting mentally impaired children, and people 
who are accused of smuggling foreign children into the United 
States to serve as prostitutes. Approximately 400 of the people 
taken into custody were charged with manufacturing or 
distributing child pornography on the Internet.
    In addition to those arrests, agents have identified more 
than 250 children featured in child pornography digital images 
for State and local agencies; and responded to more than 140 
calls on ICE's toll-free hotline, allowing the public to report 
information about suspected child sex offenders and other child 
predators.
    Last month, Federal and local authorities rounded up almost 
30 legal and illegal immigrants who've been convicted of sex 
crimes. All of those arrested have been convicted of a felony, 
sex crimes, and sentenced to probation. Twenty-five of them 
have been convicted of crimes involving child victims.
    These included a man from Mexico with a conviction for 
abusing his 4- and 7-year-old nieces, a Guatemalan man 
convicted of molesting his girlfriend's 10-year-old daughter, a 
man from Peru convicted of raping a 14-year-old girl, and a 
Dominican man convicted of sodomizing a 13-year-old girl.
    It has been known and stated in the continent of Africa 
that certain cultural attitudes are that if an old man has 
relationships with a very young girl, that provides him with 
longevity and good health. These are issues that impact on the 
United States of America. Children are part of the world 
family.
    The depravity of some of the sex offenders is unbelievable. 
Several days ago, a 41-year-old man was arrested for 
distributing videotape footage of himself committing sex acts 
on a 2-month-old infant. Agents of Operation Predator had 
traced him through his e-mail. He faces a prison term of up to 
50 years for making and sending child pornography.
    We had a sting in Houston just about a year or two ago 
where a large network of sex offenders using the computer were 
arrested--people like your neighbors and friends. This 
gentleman is in jail without bond. Another man was arrested by 
Operation Predator agents last month for a similar offense. The 
case involves a 59-year-old man who was arrested for allegedly 
videotaping himself having sex with an 11-year-old girl who 
appears to have been drugged or intoxicated. Inside the man's 
house, the agents found what appeared to them to be a kiddy-
porn studio. His bed was covered with stuffed animals and 
surrounded by cameras.
    Nevertheless, I do have some concerns. Operation Predator 
must employ--must employ--not employ unfair immigration laws 
that sometimes produce harsh, unwanted results. We want the 
culprit. We want to make sure that we ensure that that is the 
case. The culprit we want; and we also want to make sure we're 
balanced.
    The section that I'm concerned about defines sexual abuse 
of a minor as an aggravated felony, which is vague enough to 
encompass people who should not be treated as sexual predators. 
And that's why we're having this hearing: to ensure that we get 
our person, whoever it might be. We must be careful to ensure 
that people who are caught up in the national sweep to rid our 
country of predatory criminal aliens are predators. I believe 
that as we have this hearing, we can do the right thing.
    Let me close, Mr. Chairman, by first of all saying I'm 
gratified that we've had this opportunity for review. I look 
forward to us discussing an opportunity as well to hold an 
asylum hearing, or issues dealing with asylum, dealing with the 
Haitian crisis that's going on right now, and I look forward to 
that.
    I believe that Congress can pass laws that will work. When 
I first came to Congress, I passed a date rape drug bill that 
was a direct result of adults preying upon children, teenagers, 
in a teenage club that had Kool-Aid. And the adults would put 
the date rape drug in it, and of course tragedy would occur. 
We've worked on the issue of child soldiers, and we've seen a 
difference in the number of young people taken across national 
lines and use of child soldiers. We can do something.
    And so I'm grateful for this hearing, so that we can do 
more, and I'm grateful for the witnesses. And I thank you very 
much for your kindness. I yield back, Mr. Chairman.
    [The prepared statement of Ms. Jackson Lee follows:]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

    On July 9, 2003, the Department of Homeland Security's (DHS) Bureau 
of Immigration and Customs Enforcement (BICE) announced the 
implementation of Operation Predator. Operation Predator is a 
comprehensive initiative designed to enhance our government's efforts 
to protect children from pornographers, child prostitution rings, 
Internet predators, alien smugglers, human traffickers, and other 
criminals. It has coordinated the Department's once-fragmented 
investigative and intelligence resources into a united campaign against 
child predators.
    This is an extremely important program. I agree with the statement 
that Assistant Secretary Michael Garcia made when Operation Predator 
was announced. ``There is nothing more important than protecting our 
children--the future of our nation.'' I also agree with what John Walsh 
said that day when he thanked Secretary Ridge and the Department of 
Homeland Security for its efforts to increase the protection of 
America's children. Mr. Wash said, ``Child Predators are everywhere; 
and they are cunning. It gives me tremendous hope that the future will 
be even brighter and safer for kids everywhere thanks in part to 
Operation Predator.''
    Since Operation Predator was implemented in July of 2003, federal 
agents have arrested more than 2,000 suspected child-sex offenders in a 
nationwide undercover investigation that has targeted child-pornography 
purveyors and other predatory criminals. It has taken child pornography 
suspects into custody in nearly every state and every major city. It 
has arrested U.S. citizens who were accused of traveling overseas to 
meet with children for sex, others who were accused of molesting 
mentally impaired children, and people who were accused of smuggling 
foreign children into the United States to serve as prostitutes.
    Approximately 400 of the people taken into custody were charged 
with manufacturing or distributing child pornography on the Internet. 
In addition to these arrests, agents have identified more than 250 
children featured in child pornography digital images for state and 
local police agencies, and responded to more than 140 calls on ICE's 
toll-free hot line, allowing the public to report information about 
suspected child-sex offenders and other child predators.
    Last month, federal and local authorities rounded up almost 30 
legal and illegal immigrants who have been convicted of sex crimes. All 
of those arrested have been convicted of a felony sex crimes and 
sentenced to probation. Twenty-five of them have been convicted of 
crimes involving child victims. These included a man from Mexico with a 
conviction for abusing his 4- and 7-year-old nieces; a Guatemalan man 
convicted of molesting his girlfriend's 10-year-old daughter; a man 
from Peru convicted of raping a 14-year-old girl; and a Dominican man 
convicted of sodomizing a 13-year-old girl.
    The depravity of some of the sex offenders is unbelievable. Several 
days ago, a 41-year-old man was arrested for distributing videotaped 
footage of himself committing sex acts on a two-month-old infant. 
Agents of Operation Predator had traced him through his email. He faces 
a prison term of up to 50 years for making and sending child 
pornography. He is in jail without bond.
    Another man was arrested by Operation Predator agents last month 
for a similar offense. This case involves a 59-year-old man who was 
arrested for allegedly video-taping himself having sex with an 11-year-
old girl who appears to have been drugged or intoxicated. Inside the 
man's house, the agents found what appeared to them to be a kiddie porn 
studio. His bed was covered with stuffed animals and surrounded by 
cameras.
    Nevertheless, I do have some concerns. Unfortunately, Operation 
Predator must employ unfair immigration laws that sometimes produce 
harsh, unwarranted results. For instance, section 101(a)(43)(A) of the 
Immigration and Nationality Act defines ``sexual abuse of a minor'' as 
an aggravated felony, which is vague enough to encompass people who 
should not be treated as sexual predators. We must be careful to ensure 
that the people who are caught up in the national sweep to rid our 
country of predatory criminal aliens really are predators. Thank you.

    Mr. Hostettler. I thank the gentlelady.
    In July 1981, Mr. John Walsh and his wife, Reve Walsh, lost 
their son Adam to an abductor. Adam was later found murdered. 
The story of Adam and the Walshes' tragedy was dramatized in 
the 1983 NBC made-for-television movie ``Adam.'' The movie 
highlighted a number of missing children, leading to the 
eventual recovery of 65 children. Mr. Walsh then became the 
host of the country's prime crime-fighting show, ``America's 
Most Wanted: America Fights Back.''
    The Walshes didn't leave it at that, however. They have 
crusaded on a number of occasions in Congress for legislation 
to combat child abduction, including the Missing Children Act 
of 1982 and the Missing Children's Assistance Act of 1984. This 
legislation helped create the National Center for Missing and 
Exploited Children, of which Mr. Walsh remains a board member.
    As we have heard, NCMEC has signed an important memorandum 
of understanding with ICE to assist in identifying and 
arresting child predators. Mr. Walsh has been very supportive 
of Operation Predator and ICE. Last year, John Walsh was quoted 
as saying about ICE's program, ``Operation Predator,'' ``I 
think this sends a loud message to pedophiles, who know no 
borders, especially illegal aliens that come here that molest 
children, serve time in our prisons, and then are released: You 
cannot stay in the United States.'' Mr. Walsh is a graduate of 
the University of Buffalo.
    Mr. Walsh, on a personal note, as a father, I cannot begin 
to comprehend the depth of loss that you and your wife Reve 
experienced in 1981. If it is some small comfort to you, I can 
say, however, without hesitation, that the moms and dads that 
serve in this body and all of us that serve in the United 
States Congress, as well as the rest of the country, believe 
that America's children and, as Mr. Garcia has pointed out, now 
we know, the world's children, are safer because you are on the 
job. Thank you very much. And the floor is yours, sir.

  STATEMENT OF JOHN WALSH, CHAIRMAN OF THE NATIONAL ADVISORY 
    BOARD OF THE NATIONAL CENTER FOR MISSING AND EXPLOITED 
   CHILDREN; HOST OF ``AMERICA'S MOST WANTED: AMERICA FIGHTS 
                             BACK''

    Mr. Walsh. Thank you so much for the introduction, Chairman 
Hostettler; very gracious, and I really appreciate it. I want 
to thank you and your Committee for, you know, allowing us to 
come here today and tell the ICE story. I think good works need 
to be acknowledged, and people need to know that there are 
resources.
    Before I start, I really wanted to thank Representative 
Sheila Jackson Lee for all her great work here in the United 
States Congress. She is a loud, loud voice for children, as the 
Chair of the Children's Caucus, and she has an outstanding 
record of speaking for those who can't speak. The silent 
majority here in the United States are children. And she's done 
a great job.
    And I really support her piece of legislation to create a 
national DNA registry of sex offenders. This has been a problem 
for years, that we have identified predators; we know that they 
have many, many victims. Some States still don't allow us to 
take DNA. Why can't we, when someone is convicted of a felony, 
take their DNA, run it through her legislative piece of--the 
DNA bank--and find out if this person is wanted somewhere else, 
if they've committed crimes somewhere else? It's a great piece 
of legislation. And it would also free people that are 
innocent, people that have been charged of crimes. If the DNA 
doesn't match up or someone's in jail for something, we can run 
the DNA and find out if they're innocent.
    But I didn't mean to get sidetracked. But I just want to 
commend you. You and I are on the same page, as it relates to 
children. We're on the same page, with sexual predators, in 
allowing law enforcement to access that DNA bank and to get 
these people off the street. I just had to put in my two cents 
about all your work, and I really appreciate it.
    You know, I've been up here, coming up here, for 22 years. 
I've been before so many Committees and testified on both 
sides, the House and the Senate, on numerous occasions. And 
this is the first time that I'm here not asking for something 
or trying to get you to do something; because you have done it. 
And Congressman Flake, I'm glad you could come back here, and I 
want to thank you for taking your time today to be here, 
because this sends a loud message that we can change things.
    And instead of being here and saying, you know, ``This 
doesn't work,'' and ``We need this piece of legislation,'' and 
``We need more money''--money is always, you know, a concern, 
and a legitimate concern; and I think homeland security 
probably does need more money--but I'm here today to say this 
Operation Predator and this ICE team, it works. It works. Two 
thousand predators off the street since July 9. It's 
incredible.
    They have put together agencies, Mike Garcia and the people 
that work with him and Tom Ridge, that have been battling for 
years. When I first started ``America's Most Wanted,'' the 
first show, I'll never forget, there were three law enforcement 
agencies in that studio, that were looking for the same 
fugitive, that wouldn't talk to each other. I had to introduce 
them to each other and say, ``You're looking for the same guy. 
Who cares who gets the credit? Who cares who gets the picture 
in the paper or the 15 seconds on the news? You guys have to 
drop these turf wars and these egos, and go after this guy.'' 
That's what ICE does.
    ICE has put together Immigrations, Customs, Border Patrol: 
all these agencies that I've been after for years, to hunt down 
sexual predators, and especially international predators. I'll 
never forget begging the State Department to go after a 
dentist, a pedophile dentist, who was going to Costa Rica, 
sodomizing young boys, making videos of it, making pictures, 
and trading and selling them on the Internet. No one would 
listen to me. ``Well, we can't do it. It's not in our 
jurisdiction.''
    We chased an international pedophile by the name of--oh, 
God, he was on the FBI's Top Ten--Eric Rosser. He used to play 
keyboards for John Mellencamp and run piano schools in Indiana. 
He would go to Thailand and molest little girls. He bought a 9-
year-old girl and made a video of himself raping this girl, to 
bring back to the United States and sell.
    For years, I couldn't get anyone interested; and finally 
appealed to the FBI Director, Louis Freeh, and said, ``You have 
five sons. You can't tell me that this wouldn't affect you if 
this happened to your child.'' And by all that coercing and 
bringing it--why did I have to do that? Why did I have to get 
the FBI to put a predator on their Top Ten list, when this guy 
was traveling back and forth all over the world? And we finally 
caught him in Thailand, after he had plastic surgery and 40 
pounds of liposuction, because of an American woman who was 
there and he tried to apply to her school to be a school 
teacher so he could prey upon little girls.
    It has been so hard over these years to get these agencies 
to do their damn job. It has been near impossible to convince 
them to go outside of the United States to hunt down these 
creeps. To be in the United States is a privilege. This is a 
great country. This is a wonderful, powerful country. And I'm 
sure all of us sitting here come from some type of immigrant 
background. But if you come into the United States and you prey 
upon our children; and you're sent to a State, local, or 
Federal jail; and you do your time. And a condition of your 
parole--which is a privilege, parole and probation is a 
privilege--the condition of that is you leave this country; and 
you go like this [gestures], ``The hell with America;'' and you 
stay here, you stay in this country and violate all our rules, 
violate the principles of this country: It's beyond arrogance, 
it's illegal. And until ICE came along, I couldn't get any 
Federal agency involved in hunting these people down.
    I'll never forget when we caught a child predator. He had 
one ton of child pornography. He was arrested; he did his time; 
and that one ton of child pornography went into the sheriff's 
unit in southern California. It went into a storage unit. I 
asked the FBI, I asked all different agencies, ``Why don't you 
look at that child pornography and see if any of those kids are 
missing kids? You could charge this guy with kidnapping. What 
if these kids were murdered?'' ``We don't have the time. We 
don't have the resources.'' He had the audacity 10 years ago to 
get a lawyer, an ACLU lawyer, who sued the sheriff to get that 
child pornography back. It sat in that storage unit for over 2 
years, and he did get it back. No one looked at it. No one had 
the time; no one had the resources. And that predator got out 
on probation. God knows where he is now, because there was no 
Megan's Law.
    These guys work with the National Center. The National 
Center last year looked at 600,000 images of child pornography. 
And who did they turn to? ICE. They turned to ICE and said, 
``Here, these are the children that are being preyed upon. 
These are the people we think are the predators. We don't know 
who this predator is.'' ICE said, ``We'll do it.''
    Mike Garcia came to me, and Tom Ridge. I didn't have to go 
to them and say, ``Dammit, use these resources. Do your job. 
You're supposed to be in charge of homeland security and 
terrorists. A child predator, an international child predator, 
is a terrorist. He's preying upon our children. And if you're a 
6-year-old child that's being sodomized and raped and being 
photographed, you're terrified. That person is a terrorist.'' 
They came to me.
    They came to the National Center and said, ``We can do 
this. We can do it. We have the resources. We're going to get 
over the turf battles. We're going to get over the turf wars. 
We're going to make these agencies work together. And you know 
what we're going to do? We're going to hunt these low-lifes 
down. We're going to put them in jail, or we're going to take 
them across the border where they belong; send them back to 
their country of origin. And we're going to create a website. 
We're going to exchange information. We're going to access 
Megan's Law.''
    I went to a child murder in El Paso, Texas, where the two 
detectives, God bless them. This is a little girl that was 
kidnapped out of a Wal-Mart. You could see it on the video. It 
was as chilling as Carli Brucia, the little girl that was taken 
in Sarasota. I said to the two detectives, I said, ``You see 
how he lured her out of the store, and he didn't hold her hand? 
He said--he had her walk behind him, in case someone came up to 
him. The video picked them up out in the parking lot.'' I said, 
``You know what? This guy is a predator. I'll bet he's a repeat 
offender, and I'll bet he's registered in Megan's Law. He's in 
your sex offender registry.'' And they both looked at me and 
said, ``What's Megan's Law? What's a sex offender registry?'' I 
said, ``You should be looking at every convicted sex offender 
that lives within 10 miles of where this kidnapping occurred.'' 
They said, ``Well, you know what, Mr. Walsh? We don't have much 
evidence. The 5-year-old girl was naked, her face was burned, 
and there's no DNA.'' And I said, ``You know, let me tell you 
something. Why he burned her face was to destroy evidence. 
Whatever he did to her, he did in her face. You need a forensic 
team down here.'' I had to beg a forensic team to come from 
Dallas, from the FBI.
    They took the charred first layer of skin off of her 
forehead, and there was a handprint. That handprint was of a 
predator who was registered in Megan's Law, a sex offender who 
was out on parole. He lived two miles from that little girl. I 
had to go down there and tell these two cops how to do their 
job. I had to tell them about Megan's Law. I had to tell them 
there was a sex offender registry, that there were resources 
available.
    This group came to me. They came to us at ``America's Most 
Wanted.'' They came to the National Center and said, ``We'll 
hunt these low-lifes down. We'll get them. We'll use the 
resources. We'll use the technology of the 21st century. We'll 
start a website.''
    They know what they're doing. I know the Congresswoman's 
concerns about how we treat our aliens, our immigrants. They 
have those same concerns. I've ridden with them. I've ridden on 
that border. I've sat there all night on horses with the Border 
Patrol, who sit there in that dangerous desert at night, all 
night, looking for illegal smugglers of human bodies, of drugs, 
of weapons; al Qaeda terrorists who try to come into the 
country. I've ridden in their Black Hawk helicopters; I've gone 
on their ATV's; I've gone in their Hummers. They treat these 
people with dignity.
    They save lives on the border. Illegal smugglers will bring 
poor, innocent Mexicans who've paid them $1,500 and, the minute 
they think they're going to get caught, leave them to die in 
the desert. I've been with them when they've come up on women 
and children that are absolutely dehydrated, on the verge of 
death. They give them water, medical treatment and treat them 
with great dignity. I've seen it firsthand. Saved their lives.
    Those concerns are legitimate, but I've watched it first-
hand. I've watched how these agents handle these illegal 
immigrants, these aliens. They give them the respect that this 
country is known for. But they also send a loud, clear message: 
You want the privilege of coming here? Behave. Obey the law. If 
you molest a child or hurt a child in this country, we're going 
to hunt you down. And if you have the audacity and nerve to 
serve time in our prisons and come out, and not leave the 
country, ICE is going to hunt you down. You're going to do more 
time, and we're going to take you in chains back to that 
country where you came from.
    They've done a hell of a job: Two thousand predators. Two 
thousand. It's taken me 16 years on ``America's Most Wanted,'' 
with the help of millions of people, to catch 780 fugitives and 
bring back 34 missing children--one of them, Elizabeth Smart. 
Millions and zillions of dollars of Fox money, lots of effort, 
to hunt down these 780 fugitives worldwide, 15 off the FBI's 
Ten Most Wanted. They've caught 2,000--2,000 low-life dirtbags 
in 1 year. Should get a medal. I really mean that. They should 
get a medal.
    If they need more money, give it to them. If they need more 
resources, give it to them. Because I spent 22 years begging 
these different agencies to do the damn job that they were 
initiated to do. I couldn't get them to go outside the borders. 
I couldn't get them to do it. It wasn't sexy enough. ``Let's 
put John Gotti in jail. Let's put Michael Milliken and Ivan 
Boesky in jail.'' They don't get enough credit for that low-
life pedophile that might be the school bus driver that 
sodomizes your daughter when she's the last one off the bus. 
They ought to down that guy.
    Maybe it's not sexy; maybe it doesn't get a lot of 
publicity. But you know what? They're making streets a lot 
safer for all of our children. When you mention so many people 
on both sides of the aisle in both Houses up here that have 
children, these are the people that are out there day and night 
hunting these low-lifes down.
    I'd be willing to answer any of your questions. But what 
they have done with the Child PROTECT Act, what they have done 
with the legislation, they didn't wait for a Committee to say, 
``Go do it. Why the hell aren't you doing it? Why don't you do 
it?'' They didn't come up with any excuses, ``I can't. My hands 
are tied. It doesn't meet this. I can't do it. It's out of my 
jurisdiction.'' I never heard one of those complaints. They 
said, ``We'll do it. We'll do it legally; we'll do it 
ethically; we'll do it morally; we'll do it to the letter of 
the law. But we'll do it. We'll go out and do it.''
    I'm honored to be here today. It's my first trip up here 
that I'm not saying, ``Why the hell aren't you doing your 
job?'' or ``Give us something.'' I'm honored to be here today, 
and I'm honored that you take the time. And I wish all the 
Members were here. I hope they aren't at some lobbyist's lunch 
somewhere raising funds, because this is an important hearing.
    I'm honored to be here; that you're saying, ``What can we 
do? What can we do to help you?'' Do your job; we'll monitor 
it. You're the people that allow this guy and the people that 
he works with to operate, to make the streets safer. You allow 
him to go there, by your legislation. Your support of the Child 
PROTECT Act gave him the wherewithal to go out and round up, to 
saddle up and get these guys.
    You do a good job, and this guy follows your mandate, he 
and all the men and women who work for him. And all those 
different agencies have now been sent one loud message: The 
turf battles, the ego, and the credit, it's over. Let's just go 
get 'em.
    I'm honored to be here. Thanks for having me.
    [The prepared statement of Mr. Walsh follows:]

                    Prepared Statement of John Walsh

    Mr. Chairman and distinguished members of the Subcommittee:
    Thank you for this opportunity to appear before your Subcommittee 
today to present the views of the National Center for Missing & 
Exploited Children concerning OPERATION PREDATOR. Mr. Chairman, you 
have long been a champion on behalf of children and I commend you and 
the members of this Subcommittee for your tireless efforts that 
continue to greatly enhance the safety and protection of America's 
children. I thank you for your recognition of these critical issues 
that are targeted by the Department of Homeland Security through 
OPERATION PREDATOR and also for your continued and generous support of 
the Congressionally mandated role that the National Center for Missing 
and Exploited Children implements everyday on behalf of our children 
and families.
    Mr. Chairman, let me also express my deep appreciation to Secretary 
Ridge, Assistant Secretary, Michael J. Garcia, and the Department of 
Homeland Security for targeting those individuals who sexually exploit 
our children. While we live in a country where there are more than 
400,000 registered sex offenders, there are many thousands who have not 
registered. The majority of America's victims of sexual offenses are 
children. One in five girls, one in ten boys, but only one in three 
will report their victimization. A recent article in Tass reported 
evidence that increasingly organized criminals and terrorist groups are 
using child pornography as a source of revenue--why? Because children 
are plentiful and easy to obtain, it is inexpensive to produce, the 
profits are high, and the risks are very low. In light of the Supreme 
Court's 2002 decision on virtual child pornography, identifying who the 
children who are depicted in child pornography is of vital importance. 
The National Center for Missing and Exploited Children is pleased to 
work with the Bureau of Immigration and Customs Enforcement and other 
agencies to build a resource to address this vital concern.
    Mr. Chairman, since the launch of OPERATION PREDATOR on July 9, 
2003, the Bureau of Immigration and Customs Enforcement (hereinafter 
``ICE'') has arrested over 1,700 child predators and sex offenders. 
This comprehensive initiative by the Department of Homeland Security 
(hereinafter ``DHS'') to protect children worldwide is to be applauded. 
The National Center for Missing and Exploited Children is honored to be 
a part of this coordinated, comprehensive effort to attack the problem 
and bring those who prey upon our children to justice. The National 
Center for Missing and Exploited Children has a long history of 
partnership with agencies now a part of DHS. We have worked hand-in-
hand with the U.S. Customs Service on child pornography since 1987. We 
are proud of our decade-long partnership with the U.S. Secret Service 
since 1994. The Secret Service has provided forensic support and a wide 
array of other technical and human support in missing and exploited 
child cases.
    This administration has made child protection a priority. In 
October of 2002, President Bush hosted the first-ever White House 
Conference on Missing and Exploited Children. Today, the federal 
government is doing more than at any other time in its history to make 
the sexual exploitation of children a priority throughout our federal 
criminal enforcement agencies. We are pleased to be a part of an 
unprecedented partnership with DHS, ICE, the FBI, the Postal Inspection 
Service, the Secret Service, the Child Exploitation and Obscenity 
Section at the Department of Justice, and more than 40 Internet Crimes 
Against Children Task Forces across the country, working together to 
identify children in child pornography and keep every child safe from 
the horror of sexual exploitation.
    In order to enhance our partnership and effectiveness in meeting 
the goals of OPERATION PREDATOR, on January 29 of this year, the 
National Center for Missing and Exploited Children and the Department 
of Homeland Security's U.S. Immigration and Customs Enforcement entered 
into a Cooperative Agreement outlining various protocols that will 
greatly enhance the cooperation and effectiveness in support of this 
important initiative. Signed by Homeland Assistant Secretary Michael J. 
Garcia and the National Center for Missing and Exploited Children's 
President, Ernie Allen, this memorandum of understanding will expand 
the ongoing cooperative efforts between the two organizations. As a 
part of that agreement, the National Center for Missing and Exploited 
Children will furnish ICE with evidence and leads it receives on child 
pornography and suspected child sex violators through its national 
CyberTipline (1-800-843-5678 or cybertipline.com). In addition, ICE has 
agreed to provide the National Center for Missing and Exploited 
Children with access to child pornography images and identifying 
information contained in ICE's data systems to assist the National 
Center for Missing and Exploited Children with its efforts to locate 
missing and exploited children.
    This agreement also calls for the National Center for Missing and 
Exploited Children to alert ICE's Federal Air Marshal Service (FAMS) 
when the organization receives an ``Amber Alert'' about the kidnapping, 
endangerment, or abduction of children that might involve the aviation 
domain. This action complements the new Code Adam Alert Program that 
requires all federal facilities to have a plan to quickly locate 
missing children.
    This agreement marks an official collaboration and partnership that 
takes place at two levels:

        1.  The sharing of information to help track down child 
        predators and possibly save victims.

        2.  A national public campaign to raise awareness about the 
        facts behind child exploitation crimes, how families can 
        protect their children, and how the public can work with ICE to 
        provide tips and take predators off the streets.

    To date, both U.S. citizens and non-U.S. citizens have been 
arrested, prosecuted, and/or sentenced under OPERATION PREDATOR, 
including the following;

        <bullet>  Non-citizen child sex offenders whose crimes made 
        them subject to deportation

        <bullet>  U.S. residents who traveled abroad to engage in sex 
        with minors

        <bullet>  Individuals who molested mentally-impaired minors

        <bullet>  Individuals who used the Internet to lure minors to 
        engage in sex with them

        <bullet>  Individuals who smuggled foreign minors into this 
        country to work as prostitutes

        <bullet>  Individuals who manufactured or distributed child 
        pornography via the Internet

    Mr. Chairman, the synergies realized from the partnerships created 
under OPERATION PREDATOR will save the lives of children, save children 
and families from the horror of sexual exploitation, and bring to 
justice those who would prey on our most vulnerable population. 
OPERATION PREDATOR through its partnership with the National Center for 
Missing and Exploited Children and other agencies has in a very short 
time:

        <bullet>  Established a single web portal to access all 
        publicly available state Megan's Law databases

        <bullet>  Created a National Child Victim Identification System 
        with the National Center for Missing and Exploited Children

        <bullet>  Agents that are stationed internationally that are 
        working with foreign governments and their law enforcement 
        counterparts to enhance coordination and cooperation on crimes 
        that cross borders

        <bullet>  Working with INTERPOL to enhance foreign government 
        intelligence on criminal child predators

    Mr. Chairman, I very much appreciate the opportunity to appear 
before this Committee today and would be pleased to answer any 
questions the Committee might have on these matters.

    Mr. Hostettler. Thank you, Mr. Walsh, very much. And the 
questions I have to ask, Mr. Secretary, are less than redundant 
after that endorsement; but I will do my job, nonetheless. And 
all this Committee, this Subcommittee, and Congress, seconds 
Mr. Walsh's sentiment that in fact it is you and your 
employees, the men and women of ICE, that are making the 
streets safer, that are doing the job that we've asked you to 
do.
    Your assistant, Mr. Dougherty, last week gave a very good 
rationale for the increase in funds that the President has 
asked for your department. I think it is a good first step, but 
it is just that. It is just a first step in giving you the 
resources, the increased resources, that you need to continue 
and expand on the good job that you've done.
    Mr. Secretary, your testimony explained how local law 
enforcement officers have been cooperative in providing leads 
on alien child sex predators they have in custody, so they can 
be removed after serving their sentence. Are there certain 
localities that refuse to provide immigration status of sexual 
predators that they have in custody?
    Mr. Garcia. Thank you, Mr. Chairman. We have seen an issue 
in terms of cooperation or statements being made in terms of 
free zones or areas where the immigration laws wouldn't be 
enforced; statements by some local political leaders to that 
effect. That has not been the case in terms of child sex 
predators.
    I think this is one area where we can all agree that it's 
necessary to work together to provide the information to get 
that to ICE, so that we could take the steps necessary to make 
sure those predators don't get out of that local facility and 
get back on the streets where they can harm a child.
    Mr. Hostettler. Very good. As you may be aware, Mr. 
Secretary, the CLEAR Act, introduced by our colleague, Charlie 
Norwood of Georgia, would provide further resources for 
cooperative local law enforcement agencies to enforce the 
country's immigration laws. In your opinion, would the CLEAR 
Act, if enacted, be useful in assisting ICE and Operation 
Predator with identifying and removing alien sexual predators 
or other alien criminals?
    Mr. Garcia. Again, Mr. Chairman, I've seen some of the 
CLEAR Act legislation, and I understand the need for further 
State and local cooperation. But I think particularly in this 
area where we're talking about violent criminals, what I've 
seen as the--where it slips through the cracks has been in the 
resource issue on the fact that we have so many local 
facilities across the United States, local penitentiaries, 
State and Federal, leveraging those assets in terms of 
providing a feed into ICE, making sure we can get the coverage 
out there.
    In some cases, it'll take us 8 hours to get to a local 
facility to process an alien. And it's obviously very important 
work, but we need to be looking at how do we do that through a 
central facility; which we're doing through closed-circuit TV 
and other technology that can ensure our reach.
    So really, in the case of predators and violent offenders, 
it's that mechanism we need to develop for linking those local 
enforcement officials, local prison folks, up with our people, 
so we can make sure that that hand-off takes place, that that 
connection takes place; to ensure, again, that we don't see 
sexual predators, particularly predators who prey on children, 
slipping through the cracks of the system.
    Mr. Hostettler. Very good. One of the press releases 
mentioned that a foreign national was sentenced by a Federal 
judge in September for smuggling Mexican children into the U.S. 
to work as forced prostitutes. How widespread is this problem, 
in your perception?
    Mr. Garcia. Unfortunately, Mr. Chairman, we've been seeing 
this come up more frequently recently. You mentioned that case. 
We've had others involving the smuggling of Mexican children 
into the U.S. I think we're seeing a new focus in this area, 
new dedication to rescuing these children and making these 
cases.
    And again, to get to your point, working with those local 
officials, who are in many cases the first responders to a 
house where children may be held; educating them on the other 
part of that puzzle, the fact that these people have brought 
those children across the border, that organized criminal 
enterprises are exploiting those children for profit and 
bringing them into the U.S. I do think it's a big problem, and 
I think the fact that we've been seeing more cases recently 
within the past few months is highlighting that fact.
    Mr. Hostettler. And then finally, Mr. Secretary, how many 
of those apprehended under Operation Predator have been 
deported, and how many are still currently in the process?
    Mr. Garcia. Mr. Chairman, unfortunately, that's a difficult 
number to provide. In terms of that statistic, we've almost 
been a victim of our own success in a way, because we've had so 
many people come into the system, and are now putting in place 
the technology to track that automatically and see where they 
are in terms of the deportation proceeding.
    We have deported hundreds of sexual predators since July, 
since the time that this initiative was launched. Matching 
those to the dates and where we are in the process is somewhat 
difficult. And one of the things we're working very hard on 
now: to capture that data in meaningful ways so we have those 
statistics real-time, in terms of deportation, the categories, 
the Megan's List folks we're picking up off the street, so we 
can provide that data. But we'll have that on an ongoing basis, 
and I'll be happy to get that to the Committee as we develop 
it.
    Mr. Hostettler. Very good. Thank you.
    Mr. Walsh, in your testimony, your written testimony, you 
refer to a Supreme Court decision in 2002--I believe it's the 
case Ashcroft v. Free Speech Coalition--that requires 
prosecutors to prove that someone has posted actual real, as 
opposed to digitally enhanced, pictures of a child, to prove a 
crime took place. What has that decision, that Supreme Court 
decision, done for the morale of your non-governmental 
organization? And what can be done to minimize this blow to 
combatting child sex abuse?
    Mr. Walsh. Well, most of that revolves around the Supreme 
Court not dealing with the issue of virtual child pornography. 
Virtual child pornography is the creation of a fantasy, 
whatever you want to call it, that looks like a real man, looks 
like a real person, sodomizing or raping a 5- or 6-year-old 
child. Who is interested in that? I don't think anybody up 
there at that Committee is interested in downloading virtual 
child pornography. It looks so real. It looks like a real man 
sodomizing that little boy. It looks like a real man raping 
that little girl. It is virtual child pornography.
    And the Supreme Court justices, in their wonderful way of 
trying to protect first amendment and freedom of press, 
somewhere got confused along the line and said, ``You know, 
virtual child pornography is not child pornography.'' Well, the 
Child PROTECT Act took care of that. The Child PROTECT Act said 
virtual child pornography is child pornography. Any record--
whether it's a cartoon, whether it's a drawing, whether it's a 
computer-generated man sodomizing a 5-year-old boy--is against 
the law. Child pornography is against the law.
    So I'm glad to see that the Members of this Committee which 
supported the Child PROTECT Act--I mean, it was really the 
House of Representatives that carried the ball on the Child 
PROTECT Act. The version that you passed on the House side was 
so far superior to the Senate side that we had to have a 3-hour 
conference to work it out so that the Senate would come to the 
agreement that the House side, the one that many of you Members 
sitting right here, particularly Congresswoman Jackson Lee, 
supported, that was allowing background checks of everybody who 
works at Boys and Girls Clubs. The Boys and Girls Club wanted 
that. They wanted to know that nobody, no volunteer or anybody 
there working with children, was a convicted child molester. 
ICE has helped them with that, and the National Center.
    We reversed that decision on virtual child pornography. I 
mean, come on. You look at a screen; it looks like a real man 
sodomizing a little girl. It gives you the creeps. It breaks 
your heart; makes you cry; makes you mad; makes you angry. That 
was taken care of.
    The Child PROTECT Act that you supported so well mandated 
Code Adam in every Federal building. If a child is missing in a 
Federal building, Code Adam is activated immediately. The doors 
are shut, the security in that Federal building, that 
courthouse, whatever it is, looks for that child. Who's 
implemented that ogram? You passed that wonderful legislation, 
but you forgot to tell who to implement it and to teach the 
Federal officers--for example, the Capitol Hill cops. You know 
who does it? The ICE guys. The ICE guys said, ``We'll take that 
responsibility. We'll go in every Federal building and tell 
them how to do a Code Adam.'' Code Adam's saved kids lives. 
It's caught people that were in the act of kidnapping children. 
It was started by Wal-Mart, and it was named after my son. What 
an honor.
    But, you know, that's a long answer to your question. But 
you up here, through that Child PROTECT Act, took care of a lot 
of those concerns. It wasn't just the Amber Alert, that has 
already saved 107 kids' lives, that was mandated. It took us 6 
years to get that piece of legislation passed. I don't want to 
remind the Members here about it. I'm talking to the SWAT team 
for kids right here. But I know it took 6 years to get the 
Amber Alert passed as a national piece of legislation. Broke my 
heart for 6 years.
    But the Child PROTECT Act is a wonderful piece of 
legislation that the Members here participated in, and gave 
people, the men and women at ICE, the wherewithal to do the 
things that should have been done for 20 years.
    Mr. Hostettler. Very good. The Chair now recognizes the 
gentlelady from Texas, Ms. Jackson Lee, for questions.
    Ms. Jackson Lee. Thank you very much. Mr. Walsh, let me 
just say that our schedules up here in Washington sometimes 
don't lend themselves to the graciousness that we should 
exhibit; and that is to be at every Committee hearing. As we 
speak, a Homeland Security Committee hearing is going on. And I 
happen to serve on that Committee, and I believe some of our 
Members have had to depart for that reason. But I'm going to be 
the school teacher, and assign everyone the responsibility of 
reading line by line the transcript that this fine gentleman is 
doing. So Mr. Chairman, I want you to hand that transcript out.
    The reason why I'm saying that is the words that are in 
this room tonight--or this morning, excuse me--really need to 
be broadcast or to be pronounced around our esteemed body, but 
also nationally. And that is this emphasis on the importance of 
protecting our children. And I will say that, without any 
indictment of anyone, it's been a hard road to get that to be 
an interesting topic.
    And as I have looked at human trafficking with young girls 
in Bangladesh; as I have indicated to you without any shame, 
because I'm not broad-brushing the continent of Africa, but 
when we've gone there to look at questions of HIV/AIDS, and 
we've heard the stories of older men taking young girls as 
young as under ten because of something about purification and 
virginity and issues of that kind that would probably give us 
chills, but it happens; it is imperative that we use this 
opportunity, or many opportunities, to speak to what is 
happening to our children.
    We can go through a long list of poverty and not having 
breakfasts and lunches, but one thing about this kind of abuse: 
It ruins a child. If it doesn't take their life, it certainly 
can contribute to a drastic altering of their life into 
adulthood. And so I want to thank both Mr. Garcia and Mr. 
Walsh.
    And let me just sort of explain, Mr. Garcia, two questions 
I want to pose to you, and let you understand where I'm going 
when John Walsh so aptly commented on my concern about the 
broad brush. And I'll just focus on one aspect of it, and you 
can share your thoughts with me and then let us see how we can 
help you.
    The question of the definition of sexual abuse of a minor, 
the question I raise, and I think you're familiar with it, that 
some cultures marry early or have the need to--I had a 
situation in my community, and it was individuals from Mexico. 
And the gentleman, I guess, was about 19 and intending--in 
fact, they have married. Let me just say that they have 
married. And he was not a citizen, and so he was, if you will, 
arrested, or taken under criminal proceedings, for the 
relationship he had with a young person under 15.
    My question would be to you, do you take into consideration 
any of those circumstances when it is a cultural acquiescence 
by family members; they're ultimately marrying? I think you are 
aware of some of the cultural ceremonies that go on when 
someone is 15, etcetera; and whether or not that comes to your 
attention.
    Let me give you these other questions, so you can answer 
it. What might be helpful today as well--and I'm interested in 
how we can emphasize or improve the database, collecting of 
data--are your databases overloaded? Are you able to keep up 
with the increasing securing of data? And in the budget request 
for 2005, has Homeland Security provided extra requests for the 
ICE functions? And if not, let's see how we can help you to do 
that, if you don't have the necessary resources.
    The other point that I wanted to ask of you is this whole 
question of our foreign governments. Again, that goes to the 
misunderstanding of how children can be used internationally. 
Are we getting the cooperation that we need amongst our foreign 
governments? And if not, give us advice and instruction how we 
can begin to press the State Department to not only look at 
human trafficking, but these enormous crises that we're dealing 
with the abuse of children.
    Mr. Garcia, I'd appreciate it. And I'm going to pose some 
questions to Mr. Walsh, but I'd appreciate your response.
    Mr. Garcia. Thank you, Congresswoman. And I'll begin where 
you did, in the definition of sexual abuse of a minor under the 
immigration law. Our approach----
    Ms. Jackson Lee. And that particular incident was under 
local criminal law, so you were not involved. But you 
understand what I'm saying.
    Mr. Garcia. And I may have heard of that case, or I've 
heard of similar cases, certainly. What I can tell you is that 
we look at each case on a case-by-case basis. There were some 
cases that actually came to my attention early on in the 
Predator initiative, where looking at what the actual charges 
were or had been and the fact pattern, the status of the 
individual, say a legal permanent resident, we did look at 
those cases and make decisions in terms of detention, etcetera, 
and how we proceeded. And we continue to do that. And actually, 
we've sent out some guidance on that issue, because I do think 
it's important. Each case has to be treated separately.
    By the same token, where we've seen heinous criminals who 
have managed to obtain bail and other relief in the immigration 
proceedings, we've appealed and we've been very aggressive in 
seeking remedy on that front, as well. So on a case-by-case 
basis, we look at what was the decision here and what's the 
proper way to proceed.
    Ms. Jackson Lee. And my question, if I might, is a one-on-
one relationship where the people ultimately marry, but they 
were caught up in that kind of misunderstanding.
    Mr. Garcia. And certainly, again, that would be a factor we 
would look at. And we would also look at what's the status of 
the individual, what's the fact pattern involved in the 
underlying charge or course of conduct that led to whatever the 
charges were that we've based our action upon. And we'll take a 
look at that. And we have actually sent out guidance on that 
front.
    Ms. Jackson Lee. Thank you.
    Mr. Garcia. In terms of our data systems and the overload: 
Really, a department-wide issue, obviously. For us at ICE, 
we've taken at least four different legacy systems and tried to 
merge them into one law enforcement agency. And as I've 
discussed with the Chairman, those types of IT and 
administrative issues are really the most serious challenges we 
face as an agency.
    We have a short-term solution, in terms of a method to 
access all our systems so that the person sitting at the desk 
can get into every system we have and make sure the checks are 
run. And we have a long-term plan for a new law enforcement 
platform to be serviced across the department enforcement 
agencies.
    We have asked for additional resources in the President's 
2005 budget, $186 million in enhancements, including money for 
an institutional removal program, fugitive operations, 
detention bed space, legal backlog elimination, things that 
will support the Predator and other priority programs.
    Ms. Jackson Lee. And the databases, as well?
    Mr. Garcia. And will support our work towards creating this 
database. And again, that's a long-term project, Congresswoman, 
as I know your work in the past----
    Ms. Jackson Lee. Yes.
    Mr. Garcia. You're well aware of the need for long-term 
planning on that front so we get it right.
    In terms of foreign government cooperation: critical to the 
success of our mission. We recently were given operational 
control over former Customs and INS assets overseas. We have 
seen cooperation in foreign governments. The Chairman mentioned 
the case involving Mexico. We saw tremendous cooperation from 
the Mexican government. In fact, the initial lead for that case 
came from the Mexican authorities. We took enforcement action 
in the New York area; sent back leads we developed. They took 
enforcement action on the--in their jurisdiction.
    We have partnership there. We need to move forward in many 
cases. And I'm sure you're aware, Congresswoman, it involves 
training and education, as Mr. Walsh pointed out, on the reach 
of our law. People don't understand. The pedophiles that go 
overseas don't understand, foreign governments don't 
understand, the incredibly powerful tools Mr. Walsh mentioned 
that you have given us to work with; the fact that we can get 
at these predators, these pedophiles, who think they can cross 
our borders, go overseas, pick on 7-year-olds in Thailand with 
impunity, with immunity. And they can't.
    And we've sent that message in our four first cases under 
the PROTECT Act. We've worked very closely with authorities in 
Bangkok, Cambodia which has such a tremendous problem in this 
area. We're looking to sign some formal agreements on that 
front.
    And I have found that the hurdle there is to make sure we 
get out--we get the message out about what we can do, what we 
can provide; and then educate and go step by step with those 
local authorities to help them work with us to remove those 
predators from their streets; and bring them back here, and 
that's the case of the PROTECT Act, and make sure they're 
prosecuted.
    Ms. Jackson Lee. I thank you very much. That is an 
excellent segue, if I might, to Mr. Walsh. You've certainly 
given me--let me just say two things. One, I'd like to help you 
with the database, to specifically look to see if the funding 
is finite enough to address your needs there. So Mr. Chairman, 
I'd like to work with you as we look at the appropriations 
situation. I'd appreciate it very much.
    The other thing I would ask, and if the Chairman would 
indulge me--I'm looking at the clock. If you would just indulge 
me for a moment to get a question in to Mr. Walsh.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. I thank you very much. The other point 
that I would raise, Mr. Chairman, as I talk to the Committee as 
well, that I think we need to have a hearing with members of 
the State Department, the appropriate officials in the State 
Department. We might secure some of the international 
organizations, relief organizations, children's organizations, 
UNICEF. I believe that we've got to elevate this issue on an 
international level.
    And then Mr. Garcia has been very kind by suggesting that 
he's getting cooperation, probably working with officials. I 
appreciate it. I'm not sure if it has reached the most 
appropriate high levels, and whether it's reached the levels of 
the State Department.
    And with that in mind, that's why I'm leading to Mr. Walsh. 
And I do want to tell him, isn't it wonderful to be able to 
give, if you will, energy to an organization like the National 
Center that gets called--civilians call the National Center.
    Mr. Walsh. Absolutely.
    Ms. Jackson Lee. I've called the National Center on issues 
of lost children and exploited children; ``Can you help me?'' 
And it's almost like the civil rights movement for children; 
that people feel their rights have been deprived, they get on 
the phone and call the agency that they think will do so. So 
let me just thank you very much for the leadership that 
generated that kind of entity.
    But let me ask you this. How can we--one, what do you think 
of this idea of trying to establish more of a presence 
internationally, as we hear all these stories? And two, you 
gave a sort of frightening anecdotal story--and this is not a 
condemnation of law enforcement--of how busy they are, how 
small law enforcement is from the rural hamlets to big cities, 
how overloaded they are. And now they are now the homeland 
security first responders.
    This whole idea of a national public campaign and how can 
Congress interface with that to put this--at least to say to 
them, ``Here's what's available.'' We're up here passing laws, 
from the PROTECT Act, to Adam's Law, to Megan's Law, to many 
others that we've been able to do.
    And thank you for your commentary on the DNA because in 
particular, not only for sexual offenders, but we're going to 
refine it to have it for child predators; so they could go 
quickly to it and know that these are individuals that prey 
right on it. And I'm looking out the side of my eye on my 
Chairman, and I'm going to be parroting him to go to the 
Chairman for us to have hearings on that along with the Crime 
Subcommittee.
    But Mr. Walsh, tell me what you think about the fact that 
we need to do the international work; but also, what kind of 
campaign? Because, you know, we can provide funding to suggest 
that we have a national campaign. I mean, that can be an 
earmark, or it can be out of a particular department, if it is 
so crucial to have it. And your thoughts about that would be 
appreciated.
    Mr. Walsh. Absolutely. And I love it when you said you're 
going to be the school teacher here. And I was only kidding 
about the lunches. I know they're doing their jobs. But for you 
to be the school teacher and make sure that they know what went 
on at this hearing today is wonderful. I really think so. 
Because, you know, they're just as over-burdened as everybody 
else is.
    I love the analogy that it's almost a civil rights movement 
for children. I've seen more movement in this last year by 
Congress on both sides of the aisle for children, meaningful 
legislation and money, than I've seen in 20 years. It's really 
encouraging. But you know, I think Mike Garcia is pretty 
humble, and I think ICE is, when they come and say, ``Well, our 
database is overloaded. We need $186 million to get ICE up to 
snuff and exchange information,'' like your wonderful bill 
about the database.
    I mean, we all like to see the pictures on the other side 
of Mars, okay? But I live in Florida, where NASA is 
headquartered. And when you write those checks for billions of 
dollars to send those stupid little things up to Mars, it's 
wonderful; it's great; but you know what? If we can't get $186 
million for these guys to exchange information to hunt down a 
guy that's got a rap sheet 27 pages long and should be out of 
the country or should be in jail, I mean, it's for you, it's 
tip money, or walking-around money.
    International cooperation: I don't see it. I mean, Mike and 
ICE have tried to initiated it. During President Clinton's two 
terms, I met with him several times saying, ``Why don't we have 
an extradition treaty with Mexico?'' We've lent them billions 
of dollars, and saved them when the peso was devalued, and 
saved that country's economy. And they wouldn't sign an 
extradition treaty. I had nine ``America's Most Wanted'' 
fugitives and I knew exactly where they were in Mexico. A guy 
who raped and murdered a 9-year-old girl in front of her 
mother, an illegal Mexican national, and blinded the mother. 
And I knew exactly where he was. His father was the chief of 
police of a small town down in Mexico, and he was being 
protected by his father. And Mexico has only just started. I 
mean, here's a country we saved, that we saved their economy, 
and they won't sign an extradition treaty to send back our 
fugitives, particularly our child sexual predators.
    We're just starting to make some leeway in Thailand. Where 
you talked about the cultural differences in Africa, you know, 
where it's a symbol of virility and long life to rob an 11-
year-old, 10-year-old girl of her virginity, well, in Thailand, 
you can buy a little girl. Eric Rosser bought a 9-year-old girl 
from her immigrant peasant family, because they were broke and 
starving, and he made a video of himself sodomizing and raping 
her to sell on the Internet.
    Costa Rica, you go down there tomorrow. I've sent crews 
down there four or five times. You want to have sex with a 
little boy? You don't have to talk to somebody. They're on the 
street. Their little prostitutes are out there hustling.
    That dentist that I talked about, he went down there on 
pedophile tours. There are tours from Germany and from the 
United States, where pedophiles get together and go to Thailand 
and Costa Rica to have sex with kids, because they know it's 
not illegal in that country, that nobody's going to do it. It 
took us forever to get an indictment against this dentist down 
in Costa Rica. It was the threat that I would put Costa Rica as 
a country allowing this on ``America's Most Wanted'' every week 
for a year until they did something about it to get this guy 
arrested. And they let him bond out with a $1,000 bond. He 
destroyed the lives, as you so aptly put--he destroyed the 
lives of these little people. They thought it was funny. But 
finally, we nailed him. Finally, when he came back here, the 
message sent by the Child PROTECT Act was, ``So what, if you 
didn't do it here? You did it in Costa Rica, and we know about 
it. And you're going to pay. You're going to pay under our 
laws.''
    So I would like to see the State Department saddle up. I 
would like to see Congress say: Okay, we send relief and aid to 
many of these countries, and they deserve it. We are a 
wonderful, wonderful country. We reach out. Our generosity is 
worldwide. Why not put a little pressure on them? Why not say, 
``Hey, you're harboring this. You're harboring this behavior. 
You're allowing this to go on. You're not cooperating with us. 
You're not sending these creeps back. You're sending a loud 
message that anybody can run and hide, anybody can do what they 
want to an American child and then they can hide in this 
country, or an American can come here and exploit a child.''
    So I love your analogy about, hey, we're reaching out to 
protect children worldwide. Absolutely. So you know, Mike is 
being very nice about saying we've opened the door with Mexico, 
and all that type of stuff. You know, my attitude is, if we're 
going to give them money, let them pony-up. Let them step up to 
the bar. Let's ask them some hard questions. Let's put some 
strings to that relief. Let's put some strings attached to it 
and say, ``Come on, this goes on in your country.''
    Get Mexico to sign that extradition treaty. We saved that 
country. I have fugitives down there now. ``Oh, we don't 
believe in the death penalty. We can't send them back. We don't 
want to.'' Come on. What the hell kind of message is this?
    The hobo serial killer, perfect example: Ramirez. He was in 
and out of Immigration's hands ten times. While he committed a 
murder and was put on the FBI's Top Ten, he was in an 
immigration jail in Dallas, Texas, for crossing the border 
illegally; because none of those agencies even exchange 
information. The FBI is over-burdened. They do a great job. 
Their Innocent Images program is wonderful. They give us guys 
on ``America's Most Wanted''--I work closely with them.
    But these people know how to beat the system. They know how 
to beat the system. Ramirez, every time it got close to 
catching him, he hopped back across that border. He'd been in 
and out of American jails 17 times, over 20 years. He'd been 
convicted of crimes against Americans. He knew how to beat the 
system by murdering someone close to a train. He jumped on that 
train. He didn't take a bus; he didn't take a plane. He 
hightailed it back to Mexico. Before the sheriff ever 
investigated the murder, he was across the border. We ignored 
that. We ignored that. That man killed eight Americans. Eight 
Americans.
    He wasn't in a system anywhere. There wasn't any record of 
his crimes. It was only till the TV show started to focus in on 
him and put those murders together, did we realize that we had 
an illegal alien, Mexican national, jumping back and forth at 
will, in custody and out of custody, while he was committing 
the murders. It was disgusting. He killed eight Americans.
    Give him [Secretary Garcia] the money. He'll track them 
down. He'll find out what's going on when they get out of jail. 
Whoever tracked Resendez Ramirez? Nobody. We let him out of 
jail to kill eight Americans. What the hell is that? We can get 
a man on the moon; we can put these little lunar modules on 
Mars and send back these pictures; but we can't track a guy 
that's been in and out of 17 prisons, killed eight people? It's 
disgusting. Stupid. It's unacceptable. Especially if you're one 
of the surviving members of those families, of those victims' 
families, who ask the same question: What in the hell was this 
guy doing in the country? And what in the hell was he doing 
going back and forth across the border? And why, when 
Immigration had him, did they let him out of that jail after 4 
days, when he was on the FBI's Ten Most Wanted? What kind of 
exchange of information is that?
    He's [Secretary Garcia] trying to--he's trying to do 
something about that. Give him the ability. Give him the money. 
You guys give Homeland Security the money. I love to look at 
those pictures from Mars, but I hate to put guys like Resendez 
Ramirez on ``America's Most Wanted.''
    And that's just like in the Carli Brucia case. I asked one 
thing about the murder of that little girl: Why was that guy 
out on the streets? It's my home State. He'd been arrested 13 
times; he was convicted of 13 felonies. His probation officer 
went in to a judge in Sarasota and said, ``This low-life needs 
to be back in jail. He's failed the drug test. I ordered a drug 
test. He's tested positive for heroin and cocaine. He's been a 
`Peeping Tom.' He beat a woman near to death with a helmet. Put 
him back in, Your Honor.'' And the judge had the ability to 
arbitrarily say, ``Our jails are too full. Let him out.'' Then 
what did he do 2 months later? He killed Carli Brucia. His butt 
should have been in jail.
    Parole? He was on parole. Parole is a privilege. He revoked 
that privilege. What kind of message do we send, the State of 
Florida? Governor Bush and I, the Attorney General, and all 
kinds of people here in Washington are going to try to change 
that law in Florida and put those repeat offenders back. They 
shouldn't be on the streets. But don't tell Carli Brucia's 
mother that, or tell Carli Brucia's father. They'll be angry at 
the government for the rest of their lives in the State of 
Florida, for letting that guy walk around. They'd go in there 
and pound that judge today, if they could.
    They ask good questions. That's what he wants to do: get 
that database, coordinate it. These guys walk out of jail; they 
go like this [gestures], ``The hell with you, America. I'm 
going to get on a bus, I'm going to get on a train, and I'm 
going to go to another State. I'm going to continue preying 
upon children.'' Because nobody in the past has met them at the 
jailhouse door and said, ``Your butt is out of here. You're 
going back. The condition of your parole and probation is for 
you to leave this country and never come back in. And we're 
going to make sure that if you ever try to get in again, you 
come across the borders through Immigration or Customs; it'll 
come right up when you show your illegal ID. Or if you come 
across those borders illegally, we're going to put you in jail 
for the rest of your life.'' It's a nice message to send to 
these other countries.
    Mr. Hostettler. It sure is. The gentlelady's time has 
expired.
    Ms. Jackson Lee. Thank you. Thank you very much for your 
indulgence. Thank you, Mr. Walsh.
    Mr. Walsh. Oh, thank you for having these hearings. God 
bless you.
    Mr. Hostettler. The Chair recognizes the gentleman from 
Arizona.
    Mr. Flake. Thank the Chairman, and thank the witnesses. 
It's been extremely enlightening. I've had the pleasure of 
meeting Mr. Garcia several months ago when we launched ICE 
Storm in Phoenix. And we've already seen the effects of that. A 
couple of drop houses were recently raided, a few hundred 
people in a house. Some of them had been there for 3 days, some 
without food and water. Just a horrible, horrible situation. We 
have a lot of need, obviously, in Arizona for as many resources 
as we can muster. And I appreciate the work of Mr. Walsh; been 
a fan for a long time.
    Mr. Walsh. Thank you.
    Mr. Flake. And you've done a lot of good work.
    Mr. Garcia, about 2 years ago, ABC Channel 15 ran a series 
of stories on sex tourists in Mexico. And I think it--I came 
back here with the tapes of those series and gave them to some 
colleagues. And it was just--I went into the studio and watched 
some of those tapes. It was basically Americans, Arizonans, 
going down to Acapulco and Mazatlan, and just basically going 
with one purpose in mind: sex tourism. And it was just 
unbelievable how callous they were, and how they just flouted 
it. And they had gone down there to investigate it with hidden 
cameras, and it was just unbelievable. It just shook everybody 
who watched it to the core.
    And I think it provided a lot of fodder for those who are 
pushing for new laws and for new resources to actually go at 
this. And I just want to say publicly that they did a good job 
on this and they really helped spur some action.
    But with operation--or you mentioned that with Mexico they 
now have a task force to deal with sex tourism. Mr. Garcia, can 
you expand on that? How are they cooperating? And has it been 
good cooperation? We could use a lot better cooperation in 
Mexico in a number of areas, like extradition. How have they 
been on this issue?
    Mr. Garcia. I agree, Congressman, and with Mr. Walsh. 
Obviously, there's always a tremendous amount of work that 
needs to be done. We have seen--and I think Mr. Walsh pointed 
it out, as well--on the local level with the officers we work 
with, that work regularly with our agents overseas, tremendous 
cooperation in this area, in terms of providing us information 
that leads to these houses in the United States, or providing 
information on the sex tourists that you mentioned that think 
they can cross the border and commit these crimes without any 
repercussions.
    There is work that needs to be done. And you can see, 
Congressman, I--my experience has been that sometimes in one 
jurisdiction and a locality, you'll get very good cooperation. 
You may move 50 miles down the road and, for one reason or 
another, you're not seeing the willingness to work with us, 
where people know that this activity is going on.
    And we need to make sure we're doing everything we can, 
particularly now that since January we have operational control 
of the overseas offices investigating this activity; that we're 
doing everything we can to change that; to continue where we 
have the success, but to also start to look at the problems 
that you have highlighted here today in terms of the need to do 
more. And we recognize that.
    Mr. Flake. Thank you. Mr. Walsh, we've seen in Arizona, and 
I think across the country, the kind of a shift from drug 
smuggling to human smuggling. The profits are just as great, or 
greater. The sentences are usually lesser. And that's part of 
the reason for that. Can you talk about that?
    Are we seeing the shift that we need to focus on the human 
smuggling? Because with it comes the sex issues, and everything 
else. Can you comment on that? Do we need harsher sentences in 
that regard, to drive people out of that business, as well?
    Mr. Walsh. Well, I absolutely agree. I went down into your 
State on the Tucson border there, and rode with ICE. That's 
what I was talking about. I rode with the Border Patrol on 
their pintos, on their horses, their paints. I rode in their 
Black Hawks. I worked with them down there. And the problem is 
human smuggling.
    Drugs are coming across, yes. They always will, and Mexico 
will always be a conduit. And the Mexicans are right: As long 
as the appetite is here in the United States, they'll be in 
that business. They'll provide it. But much more lucrative has 
become the smuggling of humans. With no regard whatsoever, 
they'll charge someone $1,500; pack them in a truck. You've all 
seen the pictures in the newspaper. They'll bail out of that 
truck, and leave ten or 12 or 15 or 20 people to suffocate to 
death, or die on the border.
    And what they also do is, they'll know the name of that 
person. And when that person gets into the United States 
successfully and starts working as an illegal immigrant, maybe 
as a dishwasher or a migrant worker, they will kidnap a member 
of their family or a child in Mexico, and hold that child for 
ransom, and demand five, six, seven, ten, 15, 20 thousand 
dollars for that illegal alien that's working here at minimum 
wage. It's unbelievable, the level of extortion and 
exploitation in human smuggling.
    And you're absolutely right: The penalties for a drug 
smuggler are twice, three, four times what they are for a human 
smuggler. And they know. They bail out. They run back. They 
bring them in, and they make the money; get the money whether 
the person gets across the border or not. They get their money 
up front. They don't care if they get them alive or dead.
    And, yes, these guys are down there. They sit on those 
horses all night long. It's amazing. People are shooting, 
smugglers are shooting, guns are going off, trucks are going. 
It's chaos. I mean, I don't know how they do it. They should be 
getting about, you know, what an athlete gets, $5 million a 
year, for sitting in there in the dark while guns are going 
off, etcetera.
    And then, you see these people. And the smuggler, when they 
do catch them, he bonds out; he runs back to Mexico. It's like 
a slap on the wrist. It's a joke. You're damn right. Make it so 
difficult. Send that message. When ICE arrests one of these 
guys on the border, let's keep him here. Let's put him in jail 
for 20 years. He's going to make that call back to Mexico and 
say, ``Hey, hombre, don't do it any more. It's not worth it. 
I'm here in a Federal prison for 25 years. Don't do it any 
more.''
    Mr. Flake. Right.
    Mr. Walsh. You're right. You hit it right on the nose. But 
all they can do is arrest them; can't keep them in jail. It's 
up to you guys. You pass that Federal law; make it stiff; make 
it tough for a human smuggler. Look at the misery. A drug 
smuggler is one thing; but a smuggler of humans, that's a 
disgusting, despicable person, who couldn't care whether they 
live or die.
    And when they abandon them down on the border and they go 
back, and these people die, I think we should charge them with 
homicide. They brought these people, and left them there to 
freeze to death, or to die of dehydration or whatever. Get that 
extradition treaty. Bring them back; charge them with homicide 
and try them. Send a message. Send that message.
    Mr. Flake. Thank you. Mr. Garcia, most of us have gone to 
the border. I rode with Secretary Ridge in December along the 
border. And the notion that we're going to stop all traffic 
coming over the border, to me, is just pretty far-fetched, 
unless we have some legal, orderly process for those who are 
simply coming for economic reasons to work to do so. Myself, 
Senator McCain, and Congressman Kolbe, as you know, have 
proffered a bill to do that.
    Do you see the need for a comprehensive solution; be it 
this one or another one? Because even if you did seal the 
border, even if we could, 40 percent of those who are here 
illegally first entered the country legally. So we need to deal 
with the reality that there are people here that are going to 
stay here, that we're not going to deport, and that we need to 
deal with and realize--particularly children, who came here as 
children--that they consider themselves as American as 
American, and rightly so.
    What is your feeling overall? I know this isn't the purpose 
of this hearing, but I just had a meeting outside with a number 
of people who have come and it's on my mind.
    Mr. Garcia. Certainly, Congressman. As you mentioned, the 
President has come out with his statement regarding the guest 
worker program. Congress--yourself--has proposed certain 
legislation or mechanisms for doing what you were suggesting.
    What I feel should be our contribution at ICE to that 
process is to watch the proceedings and how Congress and the 
President structure that mechanism, and to input our 
enforcement expertise to ensure that the group that it is 
decided should have this relief--and you mentioned some of 
those people--that that's getting to the right group; that we 
don't see the fraud and abuse that we've seen in the past. I 
think that's very important. And I think we can bring some 
expertise to the table and some help in that area, to make sure 
that whatever path is chosen by those involved gets to the 
right folks.
    I have been asked out to the border. We did meet out in 
Phoenix. Tremendous issues in the Arizona smuggling corridor. 
ICE went out primarily as a response to the incredible spike in 
violence in the Phoenix metropolitan area. Since we've been out 
there, I'm happy to report that we saw a 30 percent reduction 
rate in murders in Phoenix in the last part of 2003, which the 
Phoenix PD, etcetera, are attributing to ICE Storm and our 
work. ICE Storm was obviously ini cooperation with the local 
enforcement officials. So far that has been a tremendous 
success.
    But as you point out, we're continuing to find drop houses, 
places where this human cargo, essentially, is being held in 
really incredibly horrific conditions. I have pointed out the 
threat to children. We saw a child die in the back of a tractor 
trailer in Victoria, Texas last year, suffocate. Those 
smugglers also had a 3-year-old boy that they wanted to ransom 
out, that ICE did as an undercover; rescued the boy, and 
arrested the kidnapper/smugglers.
    We've seen children abandoned in the desert, and left to 
die. And it really is an issue of protecting these children 
that are brought over, exploited on the way over. And it's 
something, as you've pointed out, we really need to hit hard. 
And there are some terrific penalties in place where we've had 
victims who have been killed, like in the Victoria case; but we 
really need to do more in that area.
    Mr. Flake. Thank you. And I thank the Chairman.
    Mr. Hostettler. Thank the gentleman. The Chair now 
recognizes the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I'd point out initially 
I do represent Denison, Iowa, where in October 2002, the 
decomposed bodies of 11 suspected illegal aliens were 
discovered in a railroad car. The deceased had left Mexico in 
June. They were extremely overheated in the rail car, and 
dehydration led to their deaths. That's something that impacts 
our local community. It impacts the attitude and the political 
position, really, on immigration in my district, and all the 
way down to the border and back.
    Abd you raised the issue, Mr. Walsh, of the extradition 
treaty. And I agree with you: Marketing in human beings and 
trafficking in human beings should be severely punished. But 
we're not able to extradite people when it exceeds the penalty 
level of the Mexicans. And I'm one of those people that 
believes that we ought to take a good look at all of our 
agreements with a country that would interfere with how we 
enforce our laws in this country. And so I appreciate that 
testimony, and both your testimony.
    I'd direct my question to Mr. Garcia. And that is, Mr. 
Garcia, under Operation Predator, ICE must have arrested 
several aliens who were convicted of their offenses over the 
past, say, several years. What responses has the agency 
received from the immigration judges and the Board of 
Immigration Appeals when it attempts to detain and remove those 
aliens?
    Mr. Garcia. Thank you, Congressman. Very good question; and 
the answer is, really, you look case by case. Under certain 
legislation, there is mandatory detention for aggravated 
felons. Many of those we arrest, obviously, under Operation 
Predator fall within that mandatory detention provision.
    Unfortunately, we have seen cases where heinous individuals 
convicted of really atrocious crimes have been bailed at a 
level. And we've been very aggressive in appealing those 
decisions, or staying those decisions, and asking for 
reconsideration in those cases.
    Overall, I've said there has been adherence to the 
mandatory detention requirements, and a recognition of the 
seriousness of these crimes and the history of these 
individuals we bring before the IJs in immigration court. But 
we have had some instances where we've had--it's been necessary 
for us to take additional action to get a remedy that we 
believe should have been initially forwarded to us.
    Mr. King. So if I heard that correctly, we have judges who 
are ignoring the mandatory retention?
    Mr. Garcia. We have seen that. I will be honest. We have 
seen cases where those we believed were subject to mandatory 
detention provisions under the statute were bailed.
    As I'm sure you're well aware, there was some question over 
the constitutionality of that particular legislation for some 
time. That was resolved last year in the DeMar v. Kim case that 
the Supreme Court decided. And it is now clear that that 
provision is constitutional. And we are being very aggressive 
in seeing that it's enforced.
    Mr. King. I think it's interesting that a judge can sit on 
an individual case and disregard a statute by their judgment on 
the constitutionality of that statute. And I'll be looking for 
those judges who do ignore the statute. Thank you, Mr. Garcia. 
And thank you, Mr. Walsh. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. You make a good point, Congressman. 
Thank you. It's mind-boggling when a judge doesn't adhere to 
Federal law, and decides to arbitrarily let somebody bond out 
that he knows in his heart is going to run across that border 
and we're never going to see him again. But good point, great 
point.
    Mr. Hostettler. I thank the gentleman. And Mr. Walsh, your 
point is an excellent one that I will not prolong much further. 
But I will not speak for Mr. Garcia or any of his employees, 
but I can tell you on numerous occasions the Chair has heard 
from various law enforcement entities that they are really 
looking at what a judge will do. And they are asking 
themselves, ``Is this worth my time, knowing what this judge, 
or knowing what judges in general will do in this particular 
case?''
    Mr. Walsh. Absolutely.
    Mr. Hostettler. And so many times we may fault law 
enforcement with not getting their job done, when in fact they 
are trying in their best ability to get their job done. Only in 
that execution of their job, they're just taking into account 
reality of the judicial system as it is today.
    Mr. Walsh. It's--you make such an important comment. I 
mean, again, in the Carli Brucia case, how do you think that 
probation officer and the detective who arrested that guy that 
killed Carli Brucia felt, when they went in and said, ``Your 
Honor, he's violated parole. He's a dangerous individual. Put 
him back in jail.'' Now, probation officers have an average of 
75 cases. They don't have time to go in and beg a judge to put 
somebody in. When you take the time to go in, and you show them 
the file, and you bring the cop that arrested him, and you 
bring everybody else, and you say, ``Look, this scumbag belongs 
in jail,'' and the judge says, ``Ah, he just--you know, maybe 
he'll get some help. He's a druggie,'' and they go, ``No.'' How 
do you think they feel? They're going to go back and say, 
``This judge is killing me. I'm going to do something else. I'm 
going to work on a different case. I'm not going to go in 
there. I'm not going to do it.''
    You're absolutely right. It's disheartening. You're trying 
to do your job. You're underpaid; you're overworked; you're 
stressed out. And you go in there, and a judge--pompous people 
that they can be, and wonderful that they can be--makes an 
arbitrary decision and goes out--that goes outside the law. Of 
course, yes, it's disheartening. I see cops that are saying all 
the time, ``Not going to work that case. I can't stand that 
judge.''
    And you know, we've dealt with that in the Child PROTECT 
Act, about Federal judges going outside the guidelines, you 
know, the Federal mandates and the Federal guidelines. And you 
know, I don't know, where does this disrespect come from? You 
know, you pass a Federal law. I mean, I don't--I adhere to the 
guidelines that are set in my life by you on the Federal level: 
Pay your taxes; do this and that. I wouldn't dare go outside 
those. And I don't know how a judge gets off doing it.
    So in a lot of child protection--I mean child exploitation 
cases in the past, we've seen judges go outside those 
guidelines. Thank God, the Child PROTECT Act made it mandatory 
life without possibility of parole for a two-time offender. But 
most of the cases of exploitation of children, about 90 percent 
of them, are tried on the State and local level. So it really 
is a State problem.
    But it's really--it's really unnerving and really 
disappointing, especially for these guys that are out on those 
streets all night in the ICE, you know, risking their lives. 
You know, when a judge goes, ``Ah, let the guy bond out,'' that 
judge knows, so does the cop that arrested him, so does that 
ICE agent, that that guy is going to walk across that border 
and say, ``The hell with you. I'm going to go down and, you 
know, I'm going to party down in Cabo San Lucas''; make a 
mockery of the criminal justice system in America.
    I still, I just can't--it's mind-boggling that we've lent 
Mexico--and they've been a great neighbor--billions of dollars 
to save their economy, and they won't sign an extradition 
treaty. I can't make them. If it was up to me, I'd go down 
there tomorrow and take care of it; but it's up to you. It's up 
to you guys, men and women here, sitting right up here. It's up 
to you to go--and the President can't do it, and Colin Powell 
can't do it. Nobody can do it except you guys. You can do it. 
You can say, ``You want to keep the relationships? You want the 
free trade zones? You want to be our good neighbor? Well, send 
those dirtbags back, and let us go down and get your criminals, 
too, and try them under American law.''
    It's a joke. I've been in Mexico nine million times. They 
laugh at us. It's a joke. See guys walking around; they've got 
15 warrants on them in the United States, and they're walking 
around in public. It's degrading and humiliating. It's stupid. 
Anyway, change it. Don't give them any more money until they 
sign that extradition treaty.
    Lots of countries that we deal with that don't take our 
money, that we haven't bailed them out, we haven't saved their 
economy, readily sign the extradition treaties and work with us 
on all kinds of issues. We don't give them any money.
    I mean, I don't know, President Clinton and I had 52 
meetings about this. I said, ``You know, this is a win-win-win 
for you. Force them to sign that treaty when you give them that 
NAFTA money.'' He said, ``I can't do it. It's got to be 
mandated by Congress.'' I don't know. Passed the buck.
    But anyway, you bring up a good point. Congressman King, 
you're right there. And you know, Mr. Flake, he's sitting on 
the border. He knows these guys hop across. Look at that--I 
mean, Arizona is in big trouble. I've been to Tucson and 
Phoenix. Those used to be cities where retirees would go to 
play golf. They used to be nice places to live. It's cowboy 
land. It's the ``wild west.'' It's the ``wild west,'' because 
the guys know they can jump over and do all kinds of things and 
commit heinous, heinous crimes. These guys can arrest them. 
They can bond out, and they can go back, and you never see them 
again. It's really a joke.
    But anyway, that's what we're here for today. God bless 
you. Do something about it.
    Mr. Hostettler. Thank you very much, Mr. Walsh. Secretary 
Garcia, thank you for your presence and your testimony, and 
especially for the work that you and your folks are doing to 
solve this problem.
    Ms. Jackson Lee. Mr. Chairman? Excuse me, Mr. Chairman. And 
isn't the world small? I have a delegation. Mr. Chairman, would 
you yield just for 1 second?
    Mr. Hostettler. The Chair recognizes the gentlelady.
    Ms. Jackson Lee. I'm sorry. I wasn't escaping. I have a 
delegation from Denmark, and they were listening, and so I had 
stepped away. I apologize. This is the ministry of homeland 
security. They were listening to you, Mr. Walsh, Mr. Garcia.
    And they were inspired to say--they came specifically to 
find out how they can secure their homeland, and they were 
listening; and to also deal with immigration issues. And they 
were impressed by our international discussion about working on 
this question of predators.
    So I just wanted you--you can--and I wanted the Chairman--
you can walk out, sir. This is the minister of homeland 
security.
    But in any event, they were impressed, Mr. Chairman, by 
your Committee, and impressed by the Members here. And I just 
wanted to let you know that I had stepped aside just for that.
    Mr. Walsh. It's wonderful they're here and you recognize 
them. I think it's great that they're here. Because I've been 
to the Middle East; I've been to the Persian Gulf. It's a 
global community now. The terrorists know that. There aren't 
any borders any more. I've walked across the Afghanistan border 
back and forth a zillion times. You know, the terrorists that 
got into this country, that flew into the towers and into the 
Pentagon or in that plane that went down in Shanksville, that 
was so easy for them to get in this country. And they come all 
over the world. I've been all over the world chasing terrorists 
and fugitives. They know how to use the Internet. They know how 
to launder money. They know how to send money.
    I'm glad to see them here. And Homeland Security has taken 
the initiative, yes. And they have the mandate to make it safer 
here. But I agree with you, the mandate should be to our 
partners, like in Denmark. Let's stop this territorial stuff, 
and let's start exchanging information.
    One of the good things that Homeland Security and ICE do is 
they work with Interpol; which gives them a chance to hunt down 
fugitives worldwide. I've been for years before Committees 
saying, ``Come on, let's use the resources of Interpol.''
    So it's great that these people are here from Denmark 
because, I'll tell you what: Terrorists, child predators, 
people who traffic in human beings and children, they know no 
borders. They don't respect any borders. They go to the places 
where they get treated the easiest, like Mexico and Costa Rica 
and Thailand. They know how to evade people. They know how to 
evade prosecution. They know how to evade penalties.
    It's great. It's great to see these people here from 
Denmark, because members of Hamas, Hezbollah, al-Qaeda--I can 
name zillions of terrorists that I've been hunting for--they 
could be in Denmark tomorrow. They were in Germany, planning 
the attacks on the Trade Towers, in hotels in Germany. It 
doesn't matter where you live any more. It's a global 
community. And they're always one step ahead of us. They always 
know what the laws are. They know what they're doing. They're 
always one step ahead of us.
    Ms. Jackson Lee. And I thank you for indulging me. Let me 
just offer my appreciation to the Chairman; Mr. Garcia; Mr. 
Walsh, who comes from his sunny Florida. Whenever we call, he 
comes.
    And Mr. Walsh, you have provoked, I think, an action item. 
I don't want to misspeak on what the Chairman and myself have 
agreed on, but I think you have prodded us to move on this as 
it relates internationally, and maybe involve some other 
Committees. And maybe we would advise that this would happen 
and you would grace us again with coming to appear on that 
hearing.
    Mr. Walsh. I'd be honored to. I'd be honored to. Your 
statement of saying that this is a civil rights issue for 
children, and getting the State Department off their butt: 
You're right on target, Congresswoman.
    Ms. Jackson Lee. Thank you.
    Mr. Walsh. You're right on target.
    Ms. Jackson Lee. I thank you so very much, and our respect 
for you and your loss.
    Mr. Garcia, thank you. You have apparently extended 
yourself. You've gone the extra mile in wanting to make sure 
this works.
    And I thank you, Mr. Chairman, for indulging me. I think 
this has been more than productive for our Committee. Thank 
you.
    Mr. Hostettler. Thank the gentlelady. We welcome our guests 
from Denmark. And all Committee Members are advised that they 
have seven legislative days to revise and extend their remarks 
for the record.
    Once again, thank you, gentlemen, for your appearance here. 
Mr. Garcia?
    Mr. Garcia. Thank you, Mr. Chairman. If I might, 
particularly timely, I think, the appearance of our colleagues 
in the Danish delegation. We did work a tremendously important 
child pornography case with the Danish authorities over the 
past several years, one that was recognized by NCMEC; a 
tremendous cooperative law enforcement effort on the front of 
protecting children.
    I would also just add my appreciation to you, Mr. Chairman, 
Congresswoman Jackson Lee, for having this hearing; being able 
to sit next to John Walsh, the most articulate spokesperson for 
the protection of children; and to hear words of support, words 
of real support, from Mr. Walsh, from this Committee.
    And that means so much to the men and women of ICE, who are 
out there every day doing this job, to the morale of those 
folks making the arrests, putting these predators behind bars, 
who realize that they are getting the recognition for the 
important public safety work that they do every day. So I thank 
you very much for that.
    Mr. Hostettler. Hear, hear. Very good. Thank you. The 
business of this Subcommittee being completed, we are 
adjourned.
    Ms. Jackson Lee. Thank you very much.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
